<html>
<title> - THE ROLE OF PURDUE PHARMA AND THE SACKLER FAMILY IN THE OPIOID EPIDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       THE ROLE OF PURDUE PHARMA
                        AND THE SACKLER FAMILY
                         IN THE OPIOID EPIDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 17, 2020

                               __________

                           Serial No. 116-130

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   


                       Available at: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                            
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-010 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                          
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                      Dave Rapallo, Staff Director
                    Alexandra Golden, Chief Counsel,
                       Elisa LaNier, Chief Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on December 17, 2020................................     1

                               Witnesses

David Sackler, Former Member of the Board of Directors, Purdue 
  Pharma L.P.
    Oral Statement...............................................     6

Dr. Kathe Sackler, Former Vice President and Member of the Board 
  of Directors, Purdue Pharma L.P.
    Oral Statement...............................................     8

Craig Landau, President and CEO, Purdue Pharma L.P.
    Oral Statement...............................................     8

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              


  * Letter from State Attorneys General re: DOJ Settlement; 
  submitted by Rep. Raskin.

  * Statement by Massachusetts Attorney General Maura Healey; 
  submitted by Chairwoman Maloney.

  * Letters from Families Impacted by the Opioid Crisis; 
  submitted by Chairwoman Maloney.

  * QFR's: to David Sackler; submitted by Chairwoman Maloney.

  * QFR's: to Kathe Sackler; submitted by Chairwoman Maloney.

  * QFR's: to Craig Landau; submitted by Rep. Raskin.

The documents entered into the record during this hearing, and 
  Questions for the Record (QFR's) with responses, are available 
  at: docs.house.gov.

 
                       THE ROLE OF PURDUE PHARMA
                         AND THE SACKLER FAMILY
                         IN THE OPIOID EPIDEMIC

                              ----------                              


                      Thursday, December 17, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:07 a.m., via 
WebEx, Hon. Carolyn B. Maloney chairwoman of the committee] 
presiding.
    Present: Representatives Maloney, Norton, Cooper, Connolly, 
Krishnamoorthi, Raskin, Khanna, Mfume, Wasserman Schultz, 
Sarbanes, Welch, Speier, Kelly, DeSaulnier, Plaskett, Gomez, 
Pressley, Tlaib, Porter, Comer, Jordan, Gosar, Hice, Grothman, 
Palmer, Higgins, Miller, Armstrong, and Keller.
    ChairwomanMaloney. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time. I now recognize myself for an 
opening statement.
    For too long, justice has been out of reach for millions of 
American families whose lives have been ravaged by our Nation's 
opioid epidemic. For decades now, parents and family members 
have watched with broken hearts as their loved ones struggled 
with opioid addiction.
    Since 1999, nearly half a million lives have been cut short 
by opioid overdoses in the United States alone. These lives 
were taken from us too soon. They were taken unnecessarily and 
they were taken unfairly. For each life lost, there have been 
many other family members--aunts, siblings, children, and loved 
ones--left to pick up the pieces.
    And right there in the middle of all this suffering was 
Purdue Pharma, the manufacturer of a highly addictive 
prescription painkiller, OxyContin. This company played a 
central role in fueling one of America's most devastating 
public health crises. Purdue has generated more than $35 
billion in revenue since bringing OxyContin to market.
    Purdue has been owned by the Sackler family since 1952. The 
Sackler family has profited enormously from the OxyContin 
business. Since bringing this painkiller to market, the family 
has withdrawn more than $10 billion from the company. Purdue 
has now admitted that after it got caught in 2007, after it 
pled guilty and paid a fine, it continued to commit crimes for 
another decade, like nothing happened.
    Documents obtained by our committee by the Department of 
Justice and by state attorneys general say that members of the 
family were directly involved with the day-to-day operations of 
the company. And they launched an incredibly destructive, 
reckless campaign to flood our communities with dangerous 
opioids.
    At the behest of the Sackler family, Purdue targeted high-
volume prescribers to boost sales of OxyContin, ignored and 
worked around safeguards intended to reduce prescription opioid 
misuse, and promoted false narratives about their products to 
steer patients away from safer alternatives and deflect blame 
toward people struggling with addiction. And most despicably, 
Purdue and the Sacklers worked to deflect the blame for all 
that suffering away from themselves and on to the very people 
struggling with the OxyContin addiction.
    Yet despite years of investigation and litigation, no 
member of the Sackler family has ever admitted to any 
wrongdoing, taken any responsibility for the devastation they 
caused, or even apologized for their actions. In their 
settlement with the Justice Department, Sackler family members 
admitted no liability.
    I believe it was appropriate that Purdue pleaded guilty to 
criminal charges because that's what it was, a crime. It was a 
crime against the American people. And with all the evidence 
that the Sackler family was directly involved and produced 
criminal actions, they were pulling the strings in fact, they 
should not escape accountability for these criminal actions 
this time around.
    Today, for the first time, two members of the Sackler 
family, David Sackler and Kathe Sackler, will be testifying 
publicly before the American people about their role in the 
opioid crisis. They held senior positions in the company and on 
the board of directors. As these documents shows, they placed 
their insatiable thirst for personal wealth over the lives of 
millions of American families they destroyed.
    It is my hope that today's hearing will give the American 
people, including the scores of victims who have had their 
families shattered, an opportunity to hear directly from those 
responsible for these atrocities.
    I do want to thank both members of the Sackler family 
appearing today for agreeing to testify voluntarily without the 
need for subpoenas. We will also hear from the CEO of Purdue.
    I would like to note that this investigation was launched 
by my predecessor, Chairman Elijah Cummings. He cared deeply 
about this issue because he saw how Purdue and others 
intentionally targeted the most vulnerable among us. He worked 
very closely with another senior member of our committee, 
Congressman Mark DeSaulnier of California, who I now recognize 
for two minutes for his opening statement.
    Mr. DeSaulnier. [Inaudible] work I also want to mention our 
former chair, our good friend, Elijah Cummings. Like myself, he 
was a survivor of cancer and he suffered. And he welcomed the 
appropriate use of painkiller. Unfortunately, he's not with us 
today, although in spirit I believe he is.
    It's been said in the Bible, in Luke, that to those who 
much is given, much is required. The Sackler family has been 
given so much--great education, billions of dollars--a company 
with a solid reputation at the time. And they've changed it 
with unbelievable marketing, and as the record shows, a willful 
belief in making more, making more.
    There are a lot of Americans in this country who are in 
jail right now, most of them people of color, Black, like Derek 
Harris, a man who was sentenced to life in prison for selling 
$30 worth of marijuana. He didn't have the kind of resources, 
he wasn't given, like so many other people in our prison system 
for selling small amounts of drugs.
    And here is this family with this powerful, powerful 
platform. It's really sad. $78.5 billion it costs Americans 
every year, according to the Centers for Disease Control. 
Ninety-one Americans on average lose their lives every day. And 
as the chair said, countless others suffer.
    I'm so glad that we are looking into it. And it's my hope 
we will have real concrete measures to make sure this never 
happens again. And most importantly for me, I'm looking for 
justice, and I haven't seen it yet.
    Thank you, Madam Chair, I yield back.
    Chairwoman Maloney. Thank you, sir, for your leadership.
    I would now like to play video statements from individuals 
who have bravely come forward to share their personal 
experiences with addiction with the committee.
    [Video shown.]
    Chairwoman Maloney. All of these stories are heartbreaking.
    Before I recognize Ranking Member Comer, I would like to 
say that I know that this issue is just as important to him as 
it is to me. Our staffs have been working together on this 
investigation and on this hearing. And I want to thank him for 
helping us arrange today's hearing. We may not see eye to eye 
on every issue, but the opioid crisis has ravaged communities 
across the country and it does not discriminate based on red 
states or blue states.
    Mr. Comer, thank you for your help with this hearing. I 
recognize you for as much time as you would like.
    Mr. Comer. Thank you, Madam Chair.
    The opioid epidemic has caused untold harm to millions of 
Americans. And in my district in rural Kentucky, thousands of 
our constituents have lost friends and loved ones to this 
scourge.
    Before us today we have one of the largest manufacturers of 
opioids in the country and the family that profited off the 
epidemic perhaps more than any other.
    Over the past 20 years, Purdue Pharma and the Sackler 
family, which has owned Purdue Pharma since the 1950's and had 
many family members in senior leadership and on the board of 
the company, have made billions from the proliferation of 
opioids. They have consistently spread lies in order to 
minimize the harmful effects of opioids and increased the 
number of Americans on their drug, OxyContin.
    Purdue Pharma created false advertising documents to 
provide doctors and patients illustrating that time-released 
OxyContin was less addictive than other immediate-release 
alternatives. Furthermore, they sought out doctors who were 
more likely to prescribe opioids and encourage them to 
prescribe OxyContin because it was safe. They did this because 
OxyContin quickly became a cash cow for the company.
    In 2007, these lies resulted in Purdue Pharma pleading 
guilty to felony charges of misbranding OxyContin and paying 
more than $600 million in criminal penalties. However, this did 
not stop Purdue's marketing campaign. It just sent it 
underground.
    Purdue spent the next decade misleading the DEA, defrauding 
the United States, paying kickbacks to companies that would 
steer patients on to OxyContin, and exacerbating the opioid 
epidemic. All the while, the Sackler family profited immensely 
from the deaths of millions of Americans.
    Since the 2007 settlement, more than 2,600 Federal and 
state lawsuits were brought against Purdue seeking restitution 
for the pain and suffering caused by Purdue and the Sackler 
family. During this time, the Sacklers began taking money out 
of the company, over $10 billion worth. Known by Forbes 
Magazine as the OxyContin clan, the Sacklers are now one of the 
15 wealthiest families in the country, even richer than the 
Rockefellers.
    In September 2019, Purdue filed for Chapter 11 bankruptcy 
in an effort to settle these suits based on the company's role 
in the opioid crisis. In October of this year, Purdue again 
pled guilty to criminal charges related to its marketing of 
OxyContin, including conspiracy to defraud the United States in 
violations of the anti-kickback statute.
    Additionally, Purdue reached a civil settlement with the 
DOJ of more than $8.3 billion in civil penalties from Purdue, 
the dissolution of Purdue Pharma, and $225 million in civil 
penalties from the Sackler family. However, October's 
settlement does not conclude the bankruptcy negotiations that 
are still ongoing. These negotiations could result in billions 
in restitution to American families.
    Madam Chairwoman, I support this hearing, as you mentioned 
in your opening statement. However, I am concerned that holding 
this hearing in the midst of a multibillion dollar settlement 
negotiation will delay and reduce needed restitution for 
millions of Americans.
    We talked with the mediator leading the negotiations, and 
no party thought having this hearing right now is a good idea. 
I told you this before the hearing was scheduled for the first 
time and I asked that you delay the hearing until January. You 
scheduled it anyway. Then after realizing the mistake, you 
canceled the hearing. And now the hearing's back on. And why? I 
hope it's not because of a New York Times op-ed pressuring you 
to move forward.
    Madam chair, you can't be influenced by a single law 
professional. There's too much at risk. I hope that having 
these hearings--this hearing today does not delay a settlement 
and result in victims getting less restitution from Purdue and 
the Sackler family.
    In this committee, we should do more than identify a 
problem and benefit from a short-term media mention. We should 
hold people accountable. I want to hold Purdue Pharma 
accountable. And I sure as hell don't want to do anything that 
would help the Sackler family in any court of law.
    Madam Chair, I yield the remainder of my time, and I look 
forward to your response. Thank you.
    Chairwoman Maloney. [Inaudible] to Mrs. Miller. I now yield 
to Ms. Miller.
    Mrs. Miller. Thank you, Chairwoman Maloney and Ranking 
Member Comer.
    Today's hearing is of the utmost importance to my state of 
West Virginia and to many other states across our Nation who 
are facing and have faced the devastating impacts of the opioid 
epidemic.
    In 2018, there were over 46,000 opioid-related overdose 
deaths in the United States. In that same year, we lost over 
700 West Virginians to opioid-related overdoses. I know these 
faces, the victims, their families. They're the person you're 
standing next to in the line at the grocery store. It's the 
person who's sitting next to you on the pew in church. They are 
your neighbors and your friends.
    A single life lost to an addiction is one too many. And, 
unfortunately, my state has lost thousands of family members 
over the years to this disease.
    Throughout the United States, we have seen this epidemic 
evolve into three stages. First, the individuals were 
prescribed and then abused their prescription opioids. The 
second way was heroin. And, of course, the third way is the 
synthetic--oh, gosh--Fentanyl out of China, Mexico, wherever.
    The studies that show that those who began to use opioids 
in the 2000's, 75 percent of them started with prescription 
opioids. In a large part, this was due because of the actions 
of the company represented here today.
    Purdue Pharma has recklessly and irresponsibly marketed 
OxyContin to increase the number of prescriptions to patients, 
which ultimately resulted in patients becoming addicted to this 
drug.
    We've seen the shift to heroin and the other dangerous 
substances like Fentanyl, as prescription opioids became too 
expensive and too hard to find. These drugs often pose their 
own risks, and they are only found on the street. For example, 
in 2016, my hometown of Huntington experienced 28 overdoses in 
a single day as a result of a contaminated batch of heroin. 
Thanks to the heroic actions of our emergency responders, 27 of 
those 28 lives were saved.
    As a result of this epidemic, families have been decimated, 
children are growing up without parents. And I can tell you 
about those babies that are being born exposed to drugs in the 
womb. For every 1,000 babies born in West Virginia, 66.2 are 
born exposed to opioids. I have sat with those mothers who have 
made the courageous decision to seek treatment, and I've held 
those babies struggling with symptoms of withdrawal. It is 
heartbreaking.
    This epidemic is shaping generations across my state and 
many others. Ask the teachers in the school system, ask the 
principals, because they're trying so hard to teach these 
children who were drug exposed all through the pregnancy and at 
birth. The doctors didn't know what was in their system.
    Since coming to Congress, I have made addressing the opioid 
epidemic a priority. I have supported our administration's work 
to increase access to naloxone, and provided much needed 
Federal dollars to our treatment centers to help the folks get 
the hope help that they need. I've also supported creative 
community-based solutions that are the result of our local 
communities who are coming together and helping our neighbors 
in need.
    While we've made great strides to address this terrible 
epidemic, we must also ensure to address the actions taken by 
Purdue Pharma in pushing OxyContin to patients. I hope that we 
get some of those answers today.
    Thank you, Madam Chair, and I yield back the balance of my 
time.
    Chairwoman Maloney. The gentlelady yields back.
    Now I will introduce our witnesses. Our first witness today 
is David Sackler, who was a member of the board of directors of 
Purdue Pharma from 2012 to 2018. Our next witness is Dr. Kathe 
Sackler, who was a vice president and member of the board of 
directors of Purdue Pharma from 1990 to 2018. Finally, we'll 
hear from Dr. Craig Landau, who is the current president and 
CEO of Purdue Pharma.
    The witnesses will be unmuted so that we can swear them in. 
So, please unmute them.
    Please raise your right-hand. Do you swear or affirm that 
the testimony that you're about to give is the truth, the whole 
truth, and nothing but the truth, so help me God.
    Let the record show that the witnesses answered in the 
affirmative.
    Without objection, your written testimoneys and statements 
will be part of the record.
    With that, Mr. Sackler, you are now recognized for your 
testimony.

   STATEMENT OF DAVID SACKLER, FORMER MEMBER OF THE BOARD OF 
                 DIRECTORS, PURDUE PHARMA L.P.

    Mr. David Sackler. Thank you.
    Chairwoman Maloney, Ranking Member Comer, and members of 
the committee, I appreciate the invitation to appear before 
you. I'm here to give my views in response to the committee's 
questions.
    I want to express my family's deep sadness about the opioid 
crisis. OxyContin is a medicine that Purdue intended to help 
people, and it has helped and continues to help millions of 
Americans. Far too many lives have been destroyed by addiction 
and abuse of opioids, including OxyContin.
    There are many lawsuits that have blamed Purdue and my 
family for the opioid crisis. While we deny liability and are 
vigorously contesting these claims, we want to respond to the 
opioid crisis, because the prescription medicine that our 
company manufactured and sold, which was never intended to harm 
anyone, ended up being part of a crisis that has harmed too 
many people.
    We are prepared to dedicate billions of dollars and 
relinquish our interest in Purdue to fund a settlement that 
will bring help to those who need it. We are currently engaged 
in a court-ordered, confidential mediation to forge a 
settlement that contemplates our contributing the entire 
company, along with billions of dollars, to abate and address 
opioid addiction and abuse.
    I joined the Purdue board of directors in 2012 and served 
as the director until 2018. I joined the board because I was 
hopeful that Purdue's medicines could help people. Like the 
rest of Purdue's board, I relied on Purdue's management to keep 
on top of the medical science and ensure the company was 
complying with all laws and regulations.
    Some people seem to think that Purdue's board of directors 
included only members of the Sackler family, but the board also 
included outside directors who were highly credentialed and 
prominent professionals from beyond our family.
    It was my family's intention, and I believe the whole 
board's goal, to create products that helped patients. 
OxyContin is an FDA-approved medication available only by 
prescription, and has been prescribed by doctors to relieve the 
suffering of millions of Americans.
    Over the years OxyContin has been on the market, Purdue 
worked to reduce the risks of addiction and abuse in a number 
of ways. In the past 20 years, Purdue spent more than a billion 
dollars on anti-abuse and diversion initiatives. Purdue 
instituted what I understand was the first voluntary abuse and 
diversion detection program in 2002. This program was expanded 
and endorsed by various state governments who later required 
Purdue to keep the program in place. And I understand it was 
used as a model for at least one other pharmaceutical company 
to follow.
    The board received regular reports from management, 
including from former DEA professionals and former Federal 
prosecutors, confirming that Purdue's abuse and diversion 
detection program was functioning well and as intended. That 
was also the conclusion of an outside auditor approved by the 
New York State Attorney General.
    Purdue instituted a strict compliance program that was 
designed to ensure that Purdue in its marketing complied with 
all laws. The board received regular, detailed documented 
reports from management that Purdue was effectively 
implementing that compliance program and that the company was 
operating in compliance with law.
    Purdue also developed the first abuse deterrent opioid, an 
OxyContin pill that could not be easily crushed, snorted, or 
dissolved into water and injected.
    When thinking about the opioid crisis, I believe it is 
necessary to keep in mind two medical problems. On the one 
hand, many Americans suffer from terrible pain and need pain 
relief. On the other hand, medications like opioids that treat 
this pain have a potential for abuse and addiction.
    The FDA and the medical establishment have always had to 
balance these medical problems. Prescription opioids are used 
successfully to treat millions of Americans every year.
    Let me conclude by saying this: What you've heard from the 
press about the Sacklers is almost certainly wrong and highly 
distorted. We also fully acknowledge that there is an opioid 
crisis that has ruined too many lives and that OxyContin 
addiction and abuse played a role in that. We are truly sorry 
to everyone who has lost a family member or suffered from the 
scourge of addiction.
    Thank you for giving me the opportunity to make this 
statement. I'm available to answer your questions.
    Chairwoman Maloney. Kathe Sackler. Kathe Sackler? Kathe 
Sackler, you're now recognized.

   STATEMENT OF DR. KATHE SACKLER, FORMER VICE PRESIDENT AND 
      MEMBER OF THE BOARD OF DIRECTORS, PURDUE PHARMA L.P.

    Dr. Kathe Sackler. Thank you, Chairwoman. I was unmuting.
    Chairwoman Maloney. We can hear you.
    Dr. Kathe Sackler. I just said thank you. I was just 
unmuting my microphone.
    Chairwoman Maloney. You are now recognized.
    Dr. Kathe Sackler. Thank you.
    Chairwoman Maloney, Ranking Member Comer, members of the 
committee, thank you for inviting me to the hearing today. I 
appreciate your invitation and the opportunity to appear 
voluntarily and answer the committee's questions to the best of 
my knowledge and recollection.
    While I'm here to be responsive to the committee, I want to 
start by speaking to the families who have lost loved ones to 
addiction and overdose. I know the loss of any family member or 
loved one is terribly painful. And nothing is more tragic than 
the loss of a child. As a mother, my heart breaks for those 
parents who have lost their children. I am so terribly sorry 
for your pain and loss.
    While every family tragedy is unique, I do know how deeply 
it hurts. I lost my brother, Robert, to mental illness and 
suicide when he was only 23 years old. I've learned from my own 
experience that our loved ones are not to blame for their 
mental illness or addiction. They deserve compassion and access 
to effective treatment and support, not stigma.
    Under the difficult circumstances of the pandemic, when 
resources are increasingly constrained, people are still 
struggling with addiction and patients are still struggling 
with serious pain. That is why I and my family are even more 
intent on achieving the kind of solution that will provide 
meaningful resources to these individuals and these families 
and these communities who have suffered so.
    When I served on the board of Purdue, I acted honestly, 
conscientiously, and in good faith. I took my fiduciary 
responsibilities to heart and followed my conscience.
    My focus mostly was on the needs of patients and doctors. 
It distresses me greatly and angers me greatly that the 
medication that was developed to help people and relieve severe 
pain has become associated with so much human suffering.
    Thank you.
    Chairwoman Maloney. Thank you. [Inaudible] you're now 
recognized. Unmute.

  STATEMENT OF CRAIG LANDAU, PRESIDENT AND CEO, PURDUE PHARMA 
                              L.P.

    Dr. Landau. Chairwoman Maloney, Ranking Member Comer, 
distinguished members of the committee, thank you for the 
opportunity to be here today. My name is Craig Landau, and 
since June 2017, I've been the president and CEO of Purdue 
Pharma.
    I'd like to start by recognizing and thanking the 
individuals who've shared their stories, their stories of loss 
and their stories of addiction. They're heartbreaking, and I 
have no words. I can't imagine the pain.
    I'm an anesthesiologist, and before pursuing a path in 
clinical research in the pharmaceutical industry, I practiced 
medicine and I treated patients in both a private practice and 
academic settings. I also served as a physician in the United 
States Army Reserves Medical Corps for more than 14 years. My 
last appointment in 2004 was part of Operation Enduring 
Freedom, where I provided support to our troops serving in both 
Iraq and Afghanistan.
    Treating patients, including wounded servicemembers, left 
an indelible mark on me. I've seen with my own eyes the 
positive impact we can have on the lives and well-being of 
patients when pain and suffering are eased.
    Medicines, including opioids, are often effective as part 
of a multidisciplinary approach to treating pain that can also 
involve other nonpharmacologic treatments as well as other 
interventions. But in every case, proper training and 
experience on the part of the treating physician are essential 
for good decisionmaking and patient care.
    But as with any medical condition, the benefits and risks 
associated with treating pain must be carefully considered. One 
very important risk associated with the use of opioids is 
addiction. I've listened to individuals in recovery describe 
their struggle with addiction.
    In meetings both public and private I've heard 
heartbreaking stories, like we heard today, from grieving 
parents whose children died from an opioid overdose. As a 
father and as a human being, I can't imagine the despair, the 
emptiness, and the anger these parents must feel every single 
day of their lives.
    Each and every instance of addiction, of overdose and death 
is a human tragedy for the individual, for their families, and 
for all of us as a society. And with this in mind, I'd like to 
address those who've been directly affected by the opioid 
crisis.
    As stated earlier, on November 24, Purdue pled guilty to 
three felonies in Federal district court based on certain past 
practices related to its opioid medicines.
    To everyone listening who's been impacted by the opioid 
crisis, I want to be clear and I want to speak directly to you. 
On behalf of Purdue as its current leader, I'm profoundly 
sorry.
    In trying to strike a careful balance between supporting 
physicians who treat patients with pain and mitigating the 
serious risks associated with the opioid medications, Purdue 
fell short. The company accepts full responsibility for its 
wrongdoing. And as Purdue's leader, I'm determined to lead all 
of our efforts to help address the opioid crisis as quickly and 
effectively as I can.
    We're charting a new course. The company changed leadership 
by bringing me in as CEO. I've made numerous changes to the 
leadership and management team of the company and also to our 
strategies. Perhaps most notably, almost three years ago, I 
ended the promotion of all of Purdue's opioid products by sales 
representatives. The company's also brought in a new 
independent chairman of the board, as well as other very highly 
qualified directors. It's been almost two years since a member 
of the Sackler family has served on the board of directors.
    And last fall, we announced a plan to dedicate 100 percent 
of Purdue's assets and resources and capabilities and know-how 
to the American people in the form of a public benefit company. 
And I hope we can discuss the details and the merits of that 
plan today.
    Under that plan, Purdue as we know it would cease to exist, 
and the Sackler family would have no role in the design, the 
governance, or the decisionmaking of the new company. The new 
company would provide millions of doses of medicines, both to 
treat addiction and also to reverse opioid overdoses, for free 
or at low cost. Simply put, this plan and these medicines will 
save lives.
    Our top priority must be to deliver maximum resources as 
quickly as possible to those who need them, period. The 
proposed resolution does that, and I'm committed to seeing it 
through. So, I appreciate your invitation to voluntarily appear 
here today. I believe accountability and this very process are 
absolutely essential to support progress. I look forward to 
answering your questions. Thank you very much.
    Chairwoman Maloney. Thank you.
    And I now recognize myself for five minutes.
    I want to focus on one event that I believe was a real 
turning point in this story, and that is Purdue's settlement 
with the Department of Justice in 2007. From 1997 to 2007, the 
Sackler family withdrew a total of about $126 million from the 
Purdue company. But then in 2007, Purdue reached a settlement 
with the Justice Department over criminal charges and pleaded 
guilty and paid a $600 million fine.
    Now, normally, when a company is forced to plead guilty to 
criminal charges, its owners and executive feel a sense of 
shame and they commit to cleaning up their act. But not the 
Sackler family. Instead, they doubled down, they continued 
their practices, and they took the 2007 settlement as a signal 
that they should withdraw even more money from Purdue in order 
to get out--as much money out as possible, as quickly as 
possible, and all so that they could prevent the money from 
going to the victims, the sufferers from the opioid crisis.
    According to documents filed in litigation starting in 
2008, right after the 2007 settlement, Purdue distributed more 
than $10 billion to the Sackler family and the companies that 
they control. That's almost 80 times what the family had 
received before 2007.
    In 2008, Richard Sackler wrote a memo to members of the 
family, including the two Sacklers here today, when he proposed 
that the company needed to, quote, distribute more free cash-
flow to the Sackler family.
    So, Mr. Sackler, when you received that email from your 
father in 2008, did you know that attorneys general were 
investigating Purdue's conduct and that settlements or 
judgments would be coming? And individuals were suing too, 
thousands, numerous states. Did you know?
    Mr. David Sackler. Madam Chairwoman, I believe based on the 
record that----
    Chairwoman Maloney. [Inaudible.]
    Mr. David Sackler. Madam Chairwoman, if you'll permit me. I 
don't know what email you're referring to. But the answer to 
your question is, no, I don't believe I--I knew that--and I 
don't believe anyone knew that lawsuits that really began in 
earnest in 2017 would be coming back in 2008.
    I'm sorry, ma'am, you're muted.
    Chairwoman Maloney. We're going to briefly--excuse me, 
we're having technical issues. We're going to take care of 
these technical issues. I can't hear you and see you and we're 
trying to correct it. We'll briefly recess.
    [Recess.]
    Chairwoman Maloney. My apologies for the technical 
problems. Resuming our conversation, Mr. Sackler.
    When you received that email from your father in 2008, did 
you know that state attorneys general across the country were 
investigating Purdue's conduct and that additional settlements 
or judgments would be coming? Mr. Sackler.
    Mr. David Sackler. Based on my recollection of the time 
period, no. Purdue at that point had settled with most or a 
large percentage of the attorneys general, as well as public--
public--I--excuse me, private injury plaintiffs. Management 
made repeated presentations to the board of directors after 
that point that the----
    Chairwoman Maloney. Thank you for your answer. My time is 
limited. And I think that it is clear that you did know that 
settlements and judgments were coming and you were trying to 
siphon off as much money as possible before that happened, and 
I can prove it.
    Mr. Sackler, in May 2007, one week after Purdue's 
settlement with DOJ on charges of misbranding and agreed to pay 
$600 million in fines, you sent an email to other family 
members and said, quote, we're rich? For how long? Until which 
suits get through to the families, end quote.
    So, let's cut to the chase. Were you trying to cash out 
profits so that opioid victims couldn't claim them in future 
lawsuits?
    Mr. David Sackler. No. I don't believe that that's what I 
meant then and I don't believe that's how I've acted since 
then. The suits that I was referring to----
    Chairwoman Maloney. Mr. Sackler, may I ask, why did you 
increase the amount of money you were withdrawing from Purdue 
so substantially in 2008, $126 million before 2007, in 2008 $10 
billion?
    Mr. David Sackler. Ma'am, I believe you're mistaken on the 
record. The distribution in 2008 was nowhere close to $10 
billion.
    Chairwoman Maloney. Over $10 billion, over $10 billion. 
Over $10 billion over 10 years.
    If you won't admit that much, then let's go to the next 
email. In September 2014, another family member, Mortimer 
Sackler, emailed your uncle Jonathan stating that Purdue was 
in, quote, a death spiral. Jonathan Sackler then responded 
with, we've taken a fantastic amount of money out of the 
company, end quote.
    Mr. Sackler, do you agree that the billions of dollars that 
Purdue transferred to your family and the companies that your 
family controls after 2008 left less money for future 
plaintiffs or creditors? Yes or no?
    Mr. David Sackler. Ma'am, I think you've mischaracterized 
that email, it's my belief. And I believe the distribution----
    Chairwoman Maloney. Reclaiming my time. Reclaiming my time. 
I think the emails speak for themselves. It's a simple 
question. Did the money that you and your family withdrew from 
Purdue leave less money for future plaintiffs in suits over 
OxyContin?
    And I'd like to find out more about where the money you 
withdrew from Purdue went and where it is today. The New York 
Attorneys General, Letitia James' office, found that your 
cousin Mortimer Sackler received several transfers that came 
through offshore shell companies and were routed through Swiss 
bank accounts. In 2009 alone, he received $64 million in wire 
transfers through an offshore shell company based in Guernsey 
in the Channel Islands near France.
    Mr. Sackler, how many shell companies do you and your 
family control?
    Mr. David Sackler. Ma'am, I cannot speak for our entire 
family, but I--based on what I know of the transfers that 
you're referring to, I believe Mortimer has stated or would 
state if he were here, that those were all appropriate, 
documented, and disclosed.
    Chairwoman Maloney. Well, in this case, the question was, 
how many shell companies do you and your family control? If you 
don't know the answer, can you commit to getting that 
information to the committee?
    Mr. David Sackler. Well, I--I--that's really a question for 
the lawyers. We're involved in a confidential mediation. I 
believe the families----
    Chairwoman Maloney. Then let the lawyers get back to the 
committee with the answer.
    How much of your family's wealth is currently in foreign 
bank accounts?
    Mr. David Sackler. Of our family's wealth? I don't 
believe--a very small amount, if any.
    Chairwoman Maloney. OK. Then get your lawyers to get the 
information back to the committee so we know about that.
    I think it's fair that your family has tried to 
fraudulently shield money for your own personal benefit. I 
think it's appalling. Those profits, in my opinion, should be 
clawed back. You and your family should compensate the American 
public for the harm that you've caused, and you should be held 
fully accountable for your actions.
    But now I'd like to turn to Dr. Landau next. Just last 
month in your settlement with the Justice Department, your 
company pleaded guilty to conspiracy to defraud the U.S. 
Government, misbranding of OxyContin, and illegal kickbacks. 
You pleaded guilty to criminal charges.
    Who committed these crimes? Which individuals at Purdue 
committed those crimes? Mr. Landau.
    Dr. Landau. Thank you for the question, Chairperson 
Maloney. You're correct, the company pled guilty in U.S.--U.S. 
district court to three felonies for specific crimes it 
committed during a specific period. And we're taking full 
accountability and responsibility for those crimes.
    We have over $8 billion of fines and penalties issued to 
us. We have a commitment for ongoing cooperation with the 
Department of Justice and a commitment to create a public 
repository for all documents deemed relevant so that the 
American people can see for themselves what did or did not 
occur.
    Chairwoman Maloney. Thank you. But that's not the question 
I asked. I asked, who committed the crimes? We know that there 
were crimes. Who committed them? All kinds of crimes. And I'm 
sorry, you're the CEO of the company and you've pleaded guilty 
to crimes, and you're now telling me by not answering the 
question that you don't know who actually committed those 
crimes. If you don't know who committed those crimes, then you 
can't be sure that they're no longer working for Purdue.
    Will you at least commit to getting the names of the people 
who committed these crimes to the committee, after you talk to 
your lawyers? Crimes were committed, who did them? Who were the 
ones that bribed doctors and pharmacies? Who were the ones that 
conspired to defraud the U.S. Government? Who were the ones 
that misbranded OxyContin and said it was safe when it's not, 
that it can kill people, as we've heard from our witnesses? So, 
if you could talk to your lawyers and get that information.
    So, to sum it up, the Sackler family made billions of 
dollars by fueling an opioid crisis, over $35 billion, that has 
claimed the lives of thousands and thousands of Americans and 
has caused an enormous amount of pain for families across the 
country.
    In light of all of this, Mr. Sackler and Dr. Sackler, I'd 
like to ask you one final question, and I'd like to begin with 
you, Dr. Sackler. Will you apologize to the American people for 
the role you played in the opioid crisis? Dr. Sackler.
    Dr. Kathe Sackler. I would be happy to apologize to the 
American people for all of the pain they have suffered and for 
the tragedies that they've experienced in their families and--
and I thought I did that earlier in my opening comments. That 
was my intention.
    I also am very angry. I'm angry that some people working at 
Purdue broke the law. I'm angry about it from 2007, and I'm 
angry about it now again in 2020. It's--it's--I think that----
    Chairwoman Maloney. I know you're angry. And I'm sorry, but 
that's not the apology we were looking for. You've apologized 
for the pain people have suffered, but you've never apologized 
for the role that you played in the opioid crisis.
    So, I'll ask you again, will you apologize for the role you 
played in the opioid crisis?
    Dr. Kathe Sackler. I have struggled with that question. I 
have asked myself over many years. I have tried to figure out, 
was--is there anything that I could have done differently, 
knowing what I knew then, not what I know now. And I have to 
say, I can't--there's nothing that I can find that I would have 
done differently, based on what I believed and understood then 
and what I learned from management in the reports to the board 
and what I learned from my colleagues on the board. And it is 
extremely distressing. And it's----
    Chairwoman Maloney. Mr. Sackler, will you apologize for the 
role that you played in the opioid crisis?
    Mr. David Sackler. I echo much of what my cousin said. But 
I will say to the American people, I am deeply and profoundly 
sorry that OxyContin has played a role in any addiction and 
death.
    I believe I conducted myself legally and ethically, and I 
believe the full record will demonstrate that. I still feel 
absolutely terrible that a product created to help, that has 
helped so many people, has also been associated with death and 
addiction.
    Chairwoman Maloney. Well, I know I've gone way over my 
time, so I want to give the same amount of time, if not more, 
to Ranking Member Comer, but he wants to go last. So, I will 
now recognize the gentleman from Georgia, Mr. Hice.
    Mr. Hice, you are now recognized for questions. Mr. Hice.
    We seem to have technical problems. Mr. Glenn Grothman, I 
now recognize you.
    Mr. Grothman. There, can you hear me?
    Chairwoman Maloney. Yes, we can.
    Mr. Grothman. I'll start off with Dr. Landau. What kind of 
marketing strategies did Purdue utilize to increase sales of 
OxyContin?
    Dr. Landau. Sorry, I was on mute.
    Representative, for the period up to becoming CEO in 2017, 
I was responsible for research and development, clinical 
development, developing new medicines. I wasn't responsible for 
setting up marketing and had no underlying expertise. Sorry, 
I----
    Mr. Grothman. [Inaudible] sales representatives or 
promoting. OK. We are told here that people were getting up to 
240 grand, the sales reps, to encourage more prescribing of 
OxyContin. Is that accurate?
    Dr. Landau. I--I don't know that I could answer the 
question because that wasn't my area of responsibility. I 
apologize.
    Mr. Grothman. OK. Does David know the answer to that 
question?
    Mr. David Sackler. Sorry. Is that directed toward me----
    Mr. Grothman. Yes, yes.
    Mr. David Sackler.--Congressman?
    I'm sorry, I don't know the answer to that question.
    Mr. Grothman. Good grief.
    Do you know what time Purdue learned of the highly 
addictive nature of OxyContin?
    Mr. David Sackler. I'm sorry, I'm not sure I heard you 
correctly. Can you repeat?
    Mr. Grothman. What time did Purdue--what year about did you 
learn that OxyContin was highly addictive?
    Mr. David Sackler. I think the highly addictive nature or 
the addictive nature of opioids is something we've known--
doctors and patients and Purdue has known since the beginning 
of the use of opioids millennia ago.
    Mr. Grothman. OK. Could you tell us the increased number of 
OxyContin, say, prescribed between, say, 19--when was it first 
marketed, OxyContin?
    Mr. David Sackler. It was approved in 1995, but most people 
I believe would draw the launch as 1996.
    Mr. Grothman. OK. Was there an increase in the amount of 
OxyContin prescribed between, say, the year 2000 and 2010?
    Mr. David Sackler. No. In aggregate, OxyContin 
prescriptions, I believe, peaked in 2003. So, if you're picking 
2000 to 2010--I'm doing this off the top of my head--I believe 
prescriptions would've been down over that period.
    Mr. Grothman. Why don't I say from 2000 to 2003; was there 
a significant increase?
    Mr. David Sackler. I'm not sure how significant the 
increase was. I don't have the numbers in front of me.
    Mr. Grothman. OK.
    Could you tell us approximately the amount of OxyContin, 
say, in the peak years, the early 2000's, the amount of 
OxyContin prescribed per capita in the United States compared 
to, say, Europe or Canada?
    Mr. David Sackler. Well, I'm not sure that I can do that 
because I don't recall the years OxyContin was approved in 
those various markets. So, I'm not sure I can draw that 
comparison.
    Mr. Grothman. Let me put it this way. Was it significantly 
more prescribed in the United States than other Western 
countries?
    Mr. David Sackler. You know, I don't know the answer to 
that. I mean, Purdue versus the other Western countries--Purdue 
introduced OxyContin. Other countries introduced it later but 
also other opioids. So, it's not an easy comparison.
    I believe the answer that you're looking for is that, yes, 
the United States as a whole is the largest consumer of opioids 
writ large in the world.
    Mr. Grothman. OK. Did that ever hit you as unusual or, kind 
of, alarms should be going off, why so many more opioids were 
prescribed in the United States than other countries?
    Mr. David Sackler. Well, it struck us, definitely, that 
there was a discrepancy. However, I think it's worth keeping in 
mind, OxyContin was a very small percentage of U.S. 
prescriptions and is designed for a very small subset of 
patients. So, while the United States leads the world in opioid 
prescribing, most, the overwhelming majority, of that is 
immediate-release opioids. OxyContin represented just a tiny 
fraction.
    Mr. Grothman. Do you know how many people were dying, say, 
of opioid overdoses in this country in the early 2000's?
    Mr. David Sackler. I don't know that data. I know the 
current numbers.
    Mr. Grothman. Tens of thousands, right?
    Mr. David Sackler. I believe that's correct.
    Mr. Grothman. OK. Do you feel any guilt for that?
    I mean, I'll put it this way. Even 15 years ago, I think 
people were--there was anecdotal evidence out there, just 
average persons talking to each other, they were amazed the 
amount of opioids being prescribed by healthcare professionals. 
OK? Were you aware of that, or did you hear stories about that?
    Mr. David Sackler. Well, we became aware of OxyContin--if 
you're asking about OxyContin in specific, we became aware of 
widespread abuse of OxyContin in, I believe, 2000-2001 time 
period, as it became reported upon in the press.
    Mr. Grothman. OK.
    Obviously, we got a lot of briefing here for this today, 
and a lot of it seems to focus on the massive amount of money 
that Purdue made selling OxyContin. Do you know--could you 
guess how much--I think there's a high markup on 
pharmaceuticals. Can you guess how much money Purdue made, or 
your family made, selling OxyContin?
    Mr. David Sackler. I don't know the exact number, so I 
wouldn't hazard a guess. I do know the distributions----
    Mr. Grothman. Guess wildly.
    Mr. David Sackler. I would guess, Purdue--well, what do you 
mean by ``made,'' profit or revenue?
    Mr. Grothman. Well, we'll say both. Look at both.
    Mr. David Sackler. OK. My guess is Purdue's revenue, what 
I've seen reported, is around $30 billion of revenue. And my 
guess for profit is probably somewhere in the neighborhood of, 
before taxes, probably about half of that.
    Mr. Grothman. OK. So, maybe, after taxes, probably over $10 
billion.
    Mr. David Sackler. No. I'm sorry, sir. The taxes are 
significantly higher. It's not a corporate--it's not a 
corporation.
    Mr. Grothman. OK. I mean--well, you said profit being about 
15. OK. Can't be significantly higher, maybe a little bit less 
than that. OK.
    You say you're sorry for what happened. And, obviously, 
thousands of people have died, tens of thousands of people have 
died, I think, because of the overselling or overmarketing of 
OxyContin.
    It's become kind of a trendy thing among the billionaires 
of the country, at least among a few of them, to say that 
they're going to give back even all of their wealth by the time 
they die.
    Does your family--have they considered giving back 
significant segments of this, whatever it is, $12 billion or 
$13 billion, to charity of some nature?
    Do you feel these gains were ill-gotten? I guess I'll put 
it that way.
    Mr. David Sackler. Well, if you'll permit me, I'd like to 
answer your first question, because I think it's important to 
gain an understanding of the settlement process that's ongoing. 
And it's our belief that the settlement that the family has 
proposed represents more than the family ever received during 
the sale of OxyContin.
    So, I think, in our opinion, sir, the answer is, yes, we 
are in settlement negotiations to hopefully conclude at doing 
what you're suggesting.
    Mr. Grothman. What percentage of sales was OxyContin for 
Purdue Pharma, say, at the high-water mark, say, in the year 
2000? What percent of--
    Chairwoman Maloney. The gentleman's time has expired, but 
the gentleman, Mr. Sackler, may answer the question.
    Mr. David Sackler. It was quite a large percentage. I 
believe around 90 percent.
    Mr. Grothman. Wow. Very interesting.
    Thank you for giving me some extra time, Madam Chairman.
    Chairwoman Maloney. Thank you for your questions.
    The gentlewoman from the District of Columbia, 
Representative Norton, is recognized.
    Representative Norton?
    Ms. Norton. I thank you, Madam Chair. I appreciate very 
much this hearing. You've delayed it in order to make it as 
fair as possible.
    And I certainly appreciate the members of the family who 
are here. And I really want to focus on other families. I want 
to focus on the families who have been victimized by OxyContin.
    Mr. Sackler, for the last 20 years, if we look back, we 
find almost half a million Americans have lost their lives from 
opioid overdoses. And, of course, your family has expressed 
empathy for them.
    I have an exchange from a 2001 email obtained by the 
Connecticut attorney general, who was an acquaintance of your 
father's, who wrote--rather, an acquaintance of your father's 
wrote to your father--and here I'm quoting--``If abusers die, 
well, that is the choice they made. I doubt a single one didn't 
know the risk.'' Mr. Sackler, your father responded, ``Abusers 
aren't victims. They are the victimizers,'' end quote.
    Now, does your family still believe that people with 
addiction are victimizers?
    Mr. David Sackler. No, not in any way. I know my father has 
apologized for that comment and comments like it in the past. 
And I know, in the 20 years since that email--roughly 20 years 
since that email was written, I believe his views on abuse and 
addiction have changed significantly.
    Ms. Norton. I very much appreciate that correction of his 
views then.
    The chair--the chair--sorry, somebody needs to mute in 
here.
    The chair indicated in her remarks earlier that we had 
received letters from dozens of people all over the country. 
And I'd really like to focus on these people.
    For example, we began this hearing, appropriately, with 
video from people who had, in fact, been victims of the opioid 
crisis.
    We have a letter from a mother in North Carolina whose 
child--who lost her child, 20 years old, and hasn't recovered 
yet. She said, ``The pain is too intense. It's more than I can 
bear. I have trouble finding the will to live and carrying on 
every single day.''
    The committee has another letter from a man in Colorado 
whose brother first took OxyContin when he was simply getting 
his teeth removed. He said, ``It didn't take long to discover 
he could get it anywhere. He'd get it in a bar. It was just not 
hard to get.'' The man's brother died. He said he had been very 
quiet about it but it isn't easy to stay quiet any longer.
    This person created a map for families to share their 
stories of loved ones grappling with addiction, and more than 
2,500 stories have been posted on his map. People come to that 
map to post their stories.
    Mr. Sackler, I'd like your personal response to the--I 
wanted to lay out these stories we've been receiving, and I'd 
like your personal response to these stories. Do they indicate 
to you that you feel remorse? How would you respond to them in 
your own words?
    I can't hear. He's muted.
    Mr. David Sackler. I'm sorry.
    I feel tremendous empathy, sorrow, and remorse that a 
product like OxyContin that was produced to help people and, I 
believe, has helped millions of people has also been associated 
with stories like you're telling. I feel incredibly sorry for 
that. And I know our entire family does as well.
    Ms. Norton. Madam Chair, I thought it was important to let 
these families speak for themselves and to hear from the 
Sackler family, Mr. Sackler in this case, a personal apology 
going to individual families. And I thank you and yield back.
    Chairwoman Maloney. The gentlelady yields back.
    Mr. Armstrong, you are now recognized for questions.
    Mr. Kelly Armstrong?
    Mr. Armstrong. Thank you. Thank you, Madam Chair.
    2007, Department of Justice concluded a prosecution on 
Purdue Pharma. Pled guilty to five years' probation, $634.5 
million in fines.
    Mr. Sackler, approximately, in 2007, what was the sale--
what was the number of sales for OxyContin?
    Mr. David Sackler. I don't remember the exact----
    Mr. Armstrong. It's about a billion bucks.
    Do you know what happened to the sales of OxyContin after 
you pled guilty in Federal court?
    Mr. David Sackler. I believe----
    Mr. Armstrong. 2008, $2.2 billion; 2009, just under $3 
billion; 2010, over $3 billion; 2011, under $3 billion; 2012, 
about $2.7 billion; 2013, $2.6 billion; 2014, $2.4 billion.
    Ms. Sackler, you wanted to ask what you could've done 
differently? Look at your own damn balance sheet.
    The day after you pled--the year after you pled guilty, you 
say you didn't know what was going on--you knew what had 
happened.
    And pursuant to a bankruptcy audit, from 1995 to 2007, you 
withdrew $1.3 billion from Purdue Pharma. You just testified 
that about 90 percent of your profit out of Purdue Pharma was 
from OxyContin.
    Do you know the number you withdrew from 2008 to 2018, Mr. 
Sackler, as a family?
    Mr. David Sackler. I believe it's approximately $10 
billion.
    Mr. Armstrong. It's about $10.7 billion. Ninety percent of 
that was related to OxyContin?
    Mr. David Sackler. I believe that's approximately right. 
And, of that money, about half was paid in taxes.
    Mr. Armstrong. Fantastic. Thank you for that. We 
appreciate--as people who fund the government, from a taxpayer, 
we really do appreciate that.
    So, my question is, do you have cable?
    Mr. David Sackler. I do have cable, yes.
    Mr. Armstrong. Do you get newspapers?
    Mr. David Sackler. No, I don't receive subscriptions to 
newspapers. I see--I get my news online.
    Mr. Armstrong. I was practicing criminal defense at the 
time all this was going on, and I don't--I wish we could have 
every one of these companies in here at every different way. 
But I think it goes beyond the pale of believability to think 
that, after settling with the Federal Government in 2007, you 
can honestly say, watching the sales of your own company's 
drugs, that you didn't know a problem was coming down the pipe. 
And to say that just defies believability and is absolutely 
abhorrent and appalling to the victims of opioid addiction.
    We have gone through this; we've watched this happen. We've 
watched it happen in our communities. We've watched it happen 
from one end to the other. And I have no doubt in my mind that 
there were people within your company doing things differently. 
But I also have no doubt in my mind, just by looking at your 
own balance sheets, that you think claiming plausible 
deniability to any of this makes any sense whatsoever.
    And the last thing I would just say before I yield back is 
that, as we continue to move through this and as we continue to 
do this, you know who benefits the best from these remote 
hearings? The witnesses. Because we don't get the coverage we 
should, and we don't get the way this should be.
    And I agree we're in the middle of a pandemic, and I agree 
these things are difficult. But when we have technical 
difficulties, these are the exact kind of hearings that the 
American people need to hear about. Congress's opinion is at an 
all-time low, and rightfully so, in my opinion, but we actually 
serve a very important purpose, and one of it is to hold people 
accountable.
    If one of my clients were to sell--sold five pills of 
OxyContin on the street and got tied up in Federal court, you 
know what their criminal penalty is? It's a 10-year minimum 
mandatory sentence in Federal court.
    And, in these opening statements, we get--vigorously defend 
about everything, we defend any wrongdoing. But you all have 
pled guilty four times in Federal court, once in 2007 and three 
times in 2020. And at least acknowledging that, either in your 
testimony or opening statement, would've been, I think, 
relevant, important, and probably given you more credibility 
with me and the rest of the committee.
    And, with that, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    I now recognize the gentleman from Tennessee, Mr. Cooper. 
You are now recognized, Mr. Cooper.
    Mr. Cooper?
    I can't hear you. Can you unmute, Mr. Cooper?
    Mr. Cooper. Can you hear me?
    Chairwoman Maloney. Now we can hear.
    Mr. Cooper. Thank you, Madam Chair.
    Mr. Sackler, I'd like to ask you some questions about you 
and your family's involvement in the management of Purdue on 
the board of directors. According to the DOJ, Department of 
Justice, they said the named Sacklers, as members of the Purdue 
board, exercised substantial oversight over Purdue management.
    Mr. Sackler, isn't it correct that up until 2018 the 
Sackler family always had a majority of the board seats at 
Purdue?
    Mr. David Sackler. I believe that's true, yes.
    Mr. Cooper. So you, as a family, made decisions about all 
aspects of Purdue--marketing, budgets, financial 
distributions--didn't you, as a family?
    Mr. David Sackler. With the help of qualified outside 
directors and management.
    Mr. Cooper. But you had the board seats, the votes to do 
it.
    And you served on the board, I understand it, from 2012 to 
2018. So, you personally exercised substantial influence over 
the board.
    Mr. David Sackler. There was a large board, and there were 
a large number of directors and a split board structure, so I 
don't--I don't know what you mean by me personally influencing 
things. I don't think I would agree with that.
    Mr. Cooper. I think Upton Sinclair once wrote that a man 
has difficulty understanding something if his salary depends on 
his not understanding.
    Let's move on to Dr. Landau.
    Dr. Landau, according to documents obtained by the 
Massachusetts attorney general in 2017, you wrote that Purdue 
operated with, quote, ``the board of directors serving as the 
de facto CEO.'' Is that correct, Dr. Landau?
    Dr. Landau. Representative, my comment regarding the board 
acting as de facto CEO was a consequence of the Sacklers owning 
many pharmaceutical companies around the world and the absence 
of an appointed global position to look out over all of them. 
So, by default, the governance body was the board of directors 
for each of the companies, including but not limited to the 
U.S.
    Mr. Cooper. It is the same Sackler family that is refusing 
to admit personal liability and culpability here. The company 
has pled guilty, as I understand it, but not the individual 
members of the Sackler family.
    Dr. Landau, with outside consultants like McKinsey, it's my 
impression that they wrote as far back as 2008, ``In the U.S., 
the board of Purdue Pharma is involved in all levels of 
decisionmaking in the company on a weekly basis.''
    Another McKinsey consultant wrote, quote, ``The 
brothers''--the Sackler brothers--``who started the company, 
viewed all employees like the guys who trim the hedges. 
Employees should do exactly what's asked of them and not say 
too much.''
    This consultant further noted that Purdue--said, ``As a 
manager, you get rewarded for pandering to the board.''
    Mr. Sackler, does that ring true with you?
    Mr. David Sackler. No, it does not.
    Mr. Cooper. It's apparently referring to your father and 
his brothers.
    Mr. David Sackler. My father only had one brother, who's 
deceased. If you're referring to my grandfather, I can--my 
belief is he would've been horribly offended by that comment 
and viewed people who worked for him as valuable, imbued with a 
great deal of autonomy.
    And knowing the people within the organization, I don't 
think they would agree with that either, like Mr. Landau.
    Mr. Cooper. So, you paid McKinsey's fine hefty fees for 
them not telling the truth?
    Mr. David Sackler. Well, I wasn't a part of that McKinsey 
engagement. That was done by management. And McKinsey can 
express whatever opinion they want; that doesn't necessarily 
make it the truth.
    Mr. Cooper. Watching this hearing has been difficult, first 
hearing the testimony of the victims of your drugs.
    And I know that we all are looking for a good solution to 
pain relief, but folks like Anna Lembke, L-e-m-b-k-e, an 
addiction specialist at Stanford University, wrote a book way 
back in 2016 called ``The Drug Dealer M.D.'' that pointed out a 
lot of the issues that we're dealing with in the hearing today.
    Do you know if any members of the board of directors read 
Dr. Anna Lembke's book or were aware of that book?
    Mr. David Sackler. I don't know if any members of the board 
of directors read a specific book, no.
    Mr. Cooper. Have you read it?
    Mr. David Sackler. I have not read it.
    Mr. Cooper. I used to teach health policy at Vanderbilt 
Business School, and I required all of my students to read it. 
So, perhaps the students at Vanderbilt were ahead of the board 
of directors at Purdue.
    Because, again, if you're not interested in discovering the 
truth and if your salary depends on your not understanding the 
truth, then you're not going to pursue the truth.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman may answer his question.
    Mr. David Sackler. I was--I'm sorry, I didn't take that as 
a question. Can you rephrase it, please, Congressman?
    Mr. Cooper. Let me conclude by saying, watching you testify 
makes my blood boil. I'm not sure that I'm aware of any family 
in America that's more evil than yours.
    Chairwoman Maloney. Thank you.
    Mr. Cooper. Thank you, Madam Chair.
    Chairwoman Maloney. The gentleman's time has expired.
    The gentleman from Louisiana, Mr. Higgins, is now 
recognized for five minutes.
    Mr. Higgins?
    Mr. Higgins. Madam Chair, thank you for holding this 
hearing.
    Dr. Landau, just to advise you, I'm going to be directing 
questions to you. And I thank you for your military service.
    Dr. Landau, if you're there--we have technical challenges--
have you ever ingested OxyContin?
    Dr. Landau. I'm sorry, Representative. Did you ask me if I 
ever adjusted OxyContin?
    Mr. Higgins. Ingested.
    Dr. Landau. Oh, I'm sorry.
    Mr. Higgins. Have you ever ingested OxyContin?
    Dr. Landau. No, sir.
    Mr. Higgins. Have you, as a soldier in theater and as a 
doctor, have you personally been around your fellow man that's 
suffering extreme pain, traumatic pain?
    Dr. Landau. Representative, sadly, I have. I've treated 
patients, as I mentioned in my oral testimony----
    Mr. Higgins. Understood.
    Dr. Landau. Yes.
    Mr. Higgins. It's quite a--it's quite an intimate 
interaction, is it not, when you're trying to help someone 
that's in incredible pain.
    And, in your opinion, what would that person do to make 
that pain end at that moment?
    Dr. Landau. I believe I understand what you're asking. And 
pain can be so severe, to drive people to do many different 
things, sometimes extreme.
    Mr. Higgins. Well, the answer I'm--it's not a complicated--
it's not a trick question. The answer is, if you had extreme 
pain, insufferable pain, you would do almost anything to end 
that pain. You would certainly ingest a painkiller.
    And what I'd like to get at during my brief time of 
questioning is some contradictions regarding OxyContin, as it 
was understood to be developed as a very effective pain 
medication to be used, obviously, according to prescription. 
But it quickly became--listen, I was a police officer, a street 
cop for 12 years, full-time, civilian. I was an MP in the Army, 
but, beginning in 2004, I was a full-time civilian police 
officer.
    And most of the world, most of America came to know what 
OxyContin was in 2003, when Rush Limbaugh went through his 
addiction period and, to his credit, courageously and candidly 
admitted it on the air and went into treatment. And, prior to 
that, OxyContin, unless you were directly involved in it with 
pain management, America didn't really hear about it.
    But if you think about the timing, becoming a full-time 
police officer, street cop, SWAT cop, in 2004 until I decided 
to run for Congress in 2016, that was a period of time that 
America really went through opioid addiction in incredible 
numbers of increased addiction--heavy impact on communities 
across the country.
    And Oxy, Dr. Landau, Oxy was known to be so addictive, it 
was known on the street that it was just--cops get injured all 
the time, and we would know, generally speaking--I'm sure you 
could find exceptions--but if we got injured, we wouldn't take 
Oxy. Because it was known--it had a reputation as a one-dose 
addiction.
    Now, my point is, if you're in extreme pain--you've 
acknowledged this--we find ways through modern pharmaceuticals 
to manage that pain and deal with it. But Oxy was so powerful 
and so addictive, regardless of how effective it was--it's not 
arguable--it was just it was so addictive, the street knew that 
it was a serious problem. And yet--and yet--this is what I 
want--this is my question to you: How on Earth did Purdue 
decide to pursue this policy of pushing Oxy as a less-thane-
percent risk of addiction? To me, that's like a real betrayal.
    If there was some righteousness behind the development of 
this drug for it to be used properly and for the right reason, 
extreme pain management, that's understandable. But knowing how 
addictive it is, how did Purdue get to the point of pushing 
this drug as a one-percent-addiction drug?
    And I'll give you my time to respond.
    Dr. Landau. I understand. I appreciate the--I appreciate 
your service, and I appreciate the question, Representative 
Higgins.
    Look, addiction--I'm a physician, right? And addiction is a 
devastating disease. It's a chronic, relapsing, but treatable 
disease.
    We've known--the company has known that oxycodone, like 
other Schedule II opioids and products, carry a risk of 
addiction. Science has changed. Our understanding of the 
science has changed over time. I wasn't present for the 
development or approval of the product or the creation of----
    Mr. Higgins. How could the street know before Purdue's 
board knew? How could the street know----
    Chairwoman Maloney. The gentleman has asked a good 
question, but his time has expired.
    Dr. Landau, please answer his question.
    Mr. Higgins. Thank you, Madam Chair. I apologize.
    Dr. Landau. That's OK.
    Representative Higgins, I do want to respond to your 
question. My recollection is that the package insert or 
labeling for the product has changed over time. And, in 2001, 
it was changed by FDA to include the highest level of warning 
possible in a package insert, which is the inclusion of what we 
call a black-box warning, which calls attention to the risk of 
abuse, misuse, and addiction specifically.
    It's a terrible scourge, and I'm not minimizing the impact 
that this has had on the population. So, in essence, I'm 
agreeing with your concern.
    Chairwoman Maloney. Thank you.
    The gentleman's time has expired.
    The gentleman from Virginia, Mr. Connolly, is recognized.
    Mr. Connolly?
    Mr. Connolly. Thank you, Madam Chairwoman. Can I be heard?
    Chairwoman Maloney. Yes, you can. We can hear you.
    Mr. Connolly. Thank you. And thank you for holding this 
hearing.
    You know, there's another book that I had the privilege of 
interviewing the author on C-SPAN called ``Dopesick.'' And 
``Dopesick,'' by Beth Macy, documents the introduction of 
OxyContin as our most miracle pain treatment and how Pharma 
deliberately marketed that drug to more rural parts of my 
state, Virginia, where the level of susceptibility in many 
rural clinics and doctor's offices to this miracle drug and to 
the very aggressive marketing and the promises of pain 
treatment and pain therapy were overstated and, of course, the 
dangers of addiction understated.
    That book also documents the fact that there was very early 
evidence on the street, as Mr. Higgins said, that this had 
unusual addictive qualities. And, all of a sudden, crime rates 
were up because people craved the drug; doctors were 
overprescribing it, with the encouragement of Pharma.
    And so we're not talking about criminals in the underground 
world seeking another, you know, high. We're talking about 
people who became addicted under the supervision of their 
physician with prescribed drugs.
    I have a constituent; his son died. He was an athlete and a 
scholar at NYU from Fairfax, Virginia, and had an injury 
playing football. He was treated for that injury and was 
prescribed the pain medicine OxyContin, and he became addicted, 
through no fault of his own. And that young man did everything 
he could; he went to multiple rehab centers. He couldn't lick 
the addiction. That's how powerful it is.
    Even those who can lick the addiction often find themselves 
for years in rehab, trying to kick the addiction, because it's 
that powerful. That's why many, when they can't get OxyContin, 
as a substitute, turn to heroin.
    And dopesickness is the downside of getting off it. You get 
sick. If you don't stay on a regimen of some kind of drug 
treatment like naloxone, you're going to be in deep trouble. 
You can't go cold-turkey. Therapy here is different than with 
other substance abuse.
    And what's so tragic, Mr. and Ms. Sackler, is your family 
knew about this. You knew that it was too potent, and you did 
nothing about it as a family. You knew that people were getting 
addicted, and you did nothing about it as a family, other than 
benefit from it financially, as the chairwoman has pointed out, 
to the tune of $10 billion.
    You know, Hannah Arendt wrote about the banality of evil. 
Mr. Cooper called you the most evil family in America. I don't 
know if that's true. I don't know that your intentions were 
evil. They were certainly self-aggrandizing, and they certainly 
turned--and, in that self-aggrandizement, you had to turn a 
blind eye to the suffering that your company and that one drug 
inflicted on the American people, actually creating a crisis. 
And you bear that responsibility and will bear that 
responsibility for the rest of your lives.
    Thank you, Madam Chairwoman.
    Chairwoman Maloney. The gentleman yields back.
    The gentlewoman from West Virginia, Mrs. Miller, you are 
now recognized.
    Mrs. Miller?
    Mrs. Miller. Thank you, Chairwoman Maloney and Ranking 
Member Comer.
    I do want to reiterate the points that I made during my 
opening statement.
    My state has been hit really hard with the opioid epidemic. 
In fact, we became pioneers on how to deal with these drug-
exposed babies. The first lady three times has visited Lily's 
Place as we've learned how to deal with infants born with--they 
don't like to call it addiction; they call it drug exposure. 
Nonetheless, we've been hit so hard.
    And I am thankful for the efforts on the Federal, the 
state, and the local level to address addiction in our 
communities, and I am grateful for the progress that we've 
made. But I cannot underscore the magnitude--the magnitude--of 
this epidemic on my state and how it has not only shaped what's 
happening right now but our future generations of West 
Virginians.
    Dr. Landau, what efforts has Purdue taken to educate the 
doctors about the dangers of overprescribing OxyContin? And has 
it been effective?
    Dr. Landau. Thank you for the question, Representative 
Miller.
    Although I haven't been, until becoming CEO, responsible 
for the commercial organization, it was my belief that the 
safety and risks associated with medicines were presented to 
and discussed with physicians as part of a balanced discussion 
when our representatives would visit with physicians.
    But, I think, more importantly and more directly related to 
your question, the company's been very active over the years in 
risk mitigation and actually played a lead role in the 
development of what's called the Risk Evaluation and Mitigation 
Strategy. It was developed, I believe, and finalized at or 
around 2010.
    And, in that process, Purdue, along with a number of other 
companies, proposed that prescriber education be mandatory in 
order to prescribe controlled substances and that doing so be 
linked to the registration process for DEA certification.
    So, you know, the company, then and now, feels strongly 
that mandatory education--because, as Representative Connolly 
talked about in the example of a friend whose son died after 
being prescribed OxyContin for a sports injury, that 
prescription may not have been appropriate in the first place. 
And prescriptions start with the pen of a physician, and 
physicians need to demonstrate a level of competence before 
they issue a prescription and before medicines get into the 
hands of legitimate patients who might not otherwise require or 
benefit from these medicines.
    Mrs. Miller. Well, what has Purdue done to educate the 
patients about the dangers, also, of abusing OxyContin?
    Dr. Landau. Well, Purdue over time has been a substantial 
supporter through public awareness campaigns and third-party 
education organizations, putting forward key messages related 
to safe storage of medicines and proper disposal of 
prescription medicines.
    We know that the vast majority of medicines that wind up in 
the wrong hands actually come from friends and family members. 
Sometimes they come from the medicine cabinet of a legitimate 
patient who was prescribed the medicine for a legitimate 
medical condition by a well-trained provider.
    So, we've been a supporter of education directed at 
recipients of pain medicines, directed at schoolchildren, 
through a program run by EverFi, to get the word out to 
students at a young age that they need to be careful and they 
need to be aware of the dangers of prescription medicines and 
abuse and addiction in general.
    Mrs. Miller. Well, my next question was really related to 
that, about, you know, what you've done to help communities 
that have been negatively impacted. So, you are in the school 
systems, trying to teach the children what drug use can do to 
their body?
    Dr. Landau. Yes, definitely. We have an active program, 
active support of the organization I mentioned. And we're also 
active through our Office of Corporate Social Responsibility, 
very active, in supporting community-based programs aimed at 
education, at addiction, at recovery, at retraining, at 
reentering the work force in states like Kentucky--sorry--North 
Carolina, Connecticut, and Tennessee--examples come to mind.
    Mrs. Miller. OK. I'm sorry. I need to interrupt you, 
because I do want to ask the members of the Sackler family if 
they have ever visited Appalachia to see the impact of the 
epidemic firsthand, in my time that's left.
    Mr. David Sackler. I have visited Appalachia but not for 
the express purpose of a fact-finding or what you're 
suggesting.
    Mrs. Miller. So, why did you visit Appalachia?
    Mr. David Sackler. I visited with my wife for a vacation.
    Mrs. Miller. Well, I really think it would behoove you to 
actually go into some of these communities that have just been 
so devastated so that you understand how the epidemic, on a 
firsthand basis, has directly affected a huge amount of people 
all through Appalachia.
    Thank you, Madam Chair.
    Chairwoman Maloney. Thank you. Thank you for your very 
meaningful questions.
    The gentleman from Illinois, Mr. Krishnamoorthi, is 
recognized.
    Mr. Krishnamoorthi?
    Mr. Krishnamoorthi. Thank you, Chairwoman Maloney. Can you 
hear me?
    Chairwoman Maloney. Yes, we can. We can hear you.
    Mr. Krishnamoorthi. Dr. Kathe Sackler, I have a question 
for you.
    According to The Washington Post, in 2001, Richard Sackler, 
the former CEO and chairman of Purdue Pharma, wrote in an email 
the following. He said, quote, ``We have to hammer on the 
opioid abusers in every way possible. They are the culprits and 
the problem. They are reckless criminals.''
    Dr. Kathe Sackler, I assume you do not agree with your 
cousin Richard Sackler that opioid abusers are reckless 
criminals and culprits and the problem, correct?
    Dr. Kathe Sackler. Correct.
    Mr. Krishnamoorthi. Richard Sackler also made another 
doozy. He said people addicted to opioids were, quote, ``being 
glorified as some sort of populist victim,'' close quote.
    Now, let me go to David Sackler for a moment.
    Mr. Sackler, I'd like you to look at Image 1, which should 
pop up on your screen now.
    Staff, can you put Image 1 up?
    Mr. Sackler, this is your home in Bel Air, California, 
correct?
    Mr. David Sackler. No. I've never even spent a night there.
    Mr. Krishnamoorthi. So, you don't own this property in 
California?
    Mr. David Sackler. The trust for my benefit owns it as an 
investment.
    Mr. Krishnamoorthi. Oh, the trust owns that. Yes. Mr. 
Sackler, the trust bought this for $22.5 million in an all-cash 
deal, according to Curbed LA from March 8, 2018.
    Let's go to Image 2 for a moment, please, staff.
    Mr. Sackler, do you recognize this particular property in 
Manhattan? This was your former home?
    Mr. David Sackler. Yes. We sold that a number of years ago.
    Mr. Krishnamoorthi. Yes. You sold it for $6.1 million in 
2019.
    So, let's just recap. You bought a property in L.A. in 2018 
through your trust. At the same time that year, there were 
15,000 prescription drug opioid deaths.
    In 2019, you had another property that you sold, this one 
for $6 million. And in 2019, unfortunately, opioid deaths went 
up by almost five percent.
    Now, Mr. Sackler, I know that people got addicted to 
prescription drugs such as OxyContin. I would submit, sir, that 
you and your family are addicted to money.
    Now, Dr. Landau, I'd like to turn a question over to you.
    It turns out that, after the first round of felonies that 
Purdue Pharma committed in 2007, you, as the chief medical 
officer around that time, went to the FDA to try to lobby 
against them putting in a rule to make it harder for physicians 
to prescribe OxyContin.
    Staff, can you put up document 13 from the slideshow?
    At that time, you made a 2009 presentation in September of 
that year with your consultants at the FDA, and in that 
presentation you said in this slide, ``Who at Purdue takes 
responsibility for all these deaths?'', referring to opioid 
deaths. And the answer: ``We all feel responsible.''
    Now, Dr. Landau, I presume that when you refer to ``we,'' 
that includes you, correct?
    Dr. Landau. With respect, Representative, that wasn't a 
slide that was presented. And, actually, it was not a final 
slide; it was material in preparation for a meeting with----
    Mr. Krishnamoorthi. I see. So, you don't feel responsible. 
Is that what you're saying?
    Dr. Landau. Absolutely not, is what I'm saying.
    Mr. Krishnamoorthi. Oh, OK. Very good.
    Well, let me ask you this. You don't feel responsible for 
any of that. So, let me go to this question. You do admit that 
Purdue Pharma just admitted to committing three felonies, 
correct?
    Dr. Landau. Representative, at no time in my Purdue career 
was I a witness----
    Mr. Krishnamoorthi. It's a yes-or-no question. Did Purdue 
Pharma agree that it committed three felonies?
    Dr. Landau. As I said in my opening statement, Purdue 
pleaded guilty to three felonies in Federal district court, 
yes.
    Mr. Krishnamoorthi. Dr. Landau, the CDC looked at OxyContin 
and said the following: ``We know of no other medication that's 
routinely used for a nonfatal condition that kills patients so 
frequently.''
    Dr. Landau, I would respectfully submit that, as you seek a 
$3 million bonus from the bankruptcy court at this point in 
time, that you remember what the CDC found and you remember 
that you indeed are partly responsible for those deaths that 
you and your products helped create.
    Thank you.
    Chairwoman Maloney. Dr. Landau, did you want to respond?
    Dr. Landau. Oh, I'm sorry, I didn't know it was a question, 
and I would----
    Chairwoman Maloney. OK----
    Dr. Landau [continuing]. like to respond. I would like to 
respond by saying to the Representative, I've dedicated my 
entire career to helping patients, both through the practice of 
medicine and then by developing medicines and mitigating their 
risk.
    So, I--you'd be inhuman not to feel remorse for the actions 
of the company and the implication of the product in so many 
bad outcomes. But I do believe that the product has helped a 
great many individuals suffering from pain, individuals who the 
medicine was developed for and intended for.
    So, I'm not evading the responsibility----
    Mr. Krishnamoorthi. Will you forgo your $3 million bonus? 
Will you forgo this $3 million bonus you're taking out of the 
pockets of the people that should get that money from the 
bankruptcy court?
    Dr. Landau. Representative, I agree accountability is 
critical. And as a----
    Mr. Krishnamoorthi. Yes or no, will you give up the bonus?
    Dr. Landau [continuing]. I have already made--willingly 
made significant monetary concessions in order to move the 
bankruptcy process forward.
    Mr. Krishnamoorthi. So, the answer is no. You want that $3 
million at the expense of those opioid victims. Shame on you, 
Dr. Landau. Shame on you.
    Chairwoman Maloney. The time has expired.
    The gentleman from Pennsylvania, Mr. Keller, is recognized 
for five minutes.
    Mr. Keller?
    Mr. Keller. Thank you, Madam Chair, and I appreciate you 
holding this important hearing.
    For decades, drug overdose deaths have remained at an 
unacceptable level across the United States. Just last year, we 
lost over 4,400 Pennsylvanians due to drug overdose. That's 12 
deaths per day on average, which is 12 too many.
    I hope this committee and the House of Representatives can 
get to work on solutions that save lives and enhance the 21st 
Century Cures Act and Comprehensive Addiction and Recovery Act.
    Thanks to these efforts and President Trump's leadership on 
the issue, more resources are available to fight the opioid 
epidemic. Naloxone is more widely available to prevent 
overdoses, which has led to encouraging downward trends. 
However, more work is needed to reduce deaths related to opioid 
abuse. This includes holding companies like Purdue accountable 
for their deceptive tactics.
    Starting in 1996, Purdue Pharma and the Sackler family 
marketed OxyContin, a drug at the forefront of our Nation's 
opioid epidemic, as having much lower addiction risk to 
patients, which sharply contrasts with the reality that this 
drug has cost lives and torn families apart.
    So, just a couple questions I would have for Dr. Landau: 
What is your company doing to educate patients and providers 
about the danger of overprescribing opioids?
    Dr. Landau. Thank you for the question. It's obviously a 
very important topic.
    You know, the company has, for some time, been syndicating 
the guidelines produced by the Centers for Disease Control 
since they were issued in early 2016, which I fully support.
    We're also, as I mentioned in earlier testimony, supporting 
a tremendous amount of education, you know, through third-party 
resources to bring to bear and bring to the surface important 
information relating to both the prescription of opioids, their 
safe storage, their disposal, the consequences of addiction, 
with an emphasis on children, on schoolchildren, to prevent 
them from their initial exposure, which can have devastating 
consequences, as we've heard in earlier testimony from family 
members who have lost loved ones.
    Mr. Keller. OK.
    Also, it's my understanding that, as CEO, you have 
instituted reforms such as ending your company's use of tactics 
like detailing, where sales representatives target prescribers 
in an effort to boost sales.
    How would you recommend Congress work with the 
pharmaceutical industry to prevent opioid addiction?
    Dr. Landau. That's another tremendously important question, 
and I appreciate it.
    You're correct. Soon after becoming CEO in 2017, I made a 
decision to stop the sales-representative-based promotion of 
opioids. We also decided to eliminate whatever speakers' 
programs remained for our products.
    What I would recommend, you know, as part of the solution--
as I understand the purpose of this hearing is intended to 
solicit ideas--is to make training for prescribed--for opioids 
mandatory, as I mentioned earlier.
    And I would also suggest that efforts be made to require 
all of the medicines within this class, controlled-release and 
immediate-release opioids, to have barriers introduced to make 
them less susceptible or less attractive as drugs of abuse.
    Addiction is a tougher issue. It's a complex medical 
condition with various contributing factors. I think education 
of physicians, access to healthcare are vital.
    Mr. Keller. OK.
    And one other thing. In your background as an 
anesthesiologist, can you speak to the effectiveness of non-
opioid pain management with things like nerve blocks and 
physical therapy?
    Dr. Landau. Yes. I had a little trouble hearing the 
question, but I believe the thrust of it is speaking to 
treatments other than opioids to manage pain.
    So, as a physician----
    Mr. Keller. Yes.
    Dr. Landau [continuing]. and as a physician who's treated 
pain patients, I am a full supporter of what's referred to as a 
multidisciplinary approach to pain. Opioids and other 
pharmacologic options are one--or, you know, represent a series 
of options, but there are other options which, in my view, need 
to precede the decision to initiate therapy with opioids. And 
these are nonpharmacologic options: physical therapy, 
behavioral therapy, cognitive therapy, rehabilitation, you 
know, biofeedback.
    There are a number of modalities that are available that 
can be quite effective in combination with or in place of the 
decision to write a prescription. And I believe there are 
certain barriers, you know, to patients, at present, you know, 
sort of, preventing or reducing access to those important 
treatments. So, I would encourage any action that can be taken 
to open access up for patients for those types of therapies.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Keller. Thank you, Madam Chair. I yield back.
    Chairwoman Maloney. And the gentleman from Maryland----
    Mr. Raskin. Thank you, Madam Chair.
    Dr. Landau, has any executive in the Purdue company ever 
spent a day in jail for the actions of the corporation?
    Dr. Landau. I believe not.
    Mr. Raskin. Madam Chair, it's easy to feel outrage about 
the misdeeds of this corporation, but what about our government 
that gives license to this kind of corporate irresponsibility 
and criminality and impunity?
    Mr. Sackler, as part of the DOJ settlement, did you have to 
admit any wrongdoing or liability or responsibility for causing 
America's crisis of opioid addiction and death?
    Mr. David Sackler. No, we did not.
    Mr. Raskin. Were you interviewed by the Department of 
Justice, as part of this investigation, about your role in 
these events?
    Mr. David Sackler. No.
    Mr. Raskin. Do you take any responsibility for causing 
America's nightmarish experience with the opioid crisis?
    Mr. David Sackler. Well, though I believe the full record, 
which has not been publicly released yet, will show that the 
family and the board acted legally and ethically, I take a deep 
moral responsibility for it, because I believe our product, 
OxyContin, despite our best intentions and best efforts, has 
been associated with abuse and addiction, and----
    Mr. Raskin. Yes. You're using the passive voice there when 
you say it's been associated with abuse, which implies somehow 
you and your family were not aware of exactly what was taking 
place in the country.
    You know, Madam Chair, look at what the consequence is of 
this kind of corporate recklessness and governmental toleration 
of it. The DOJ, in 2007, let the Sackler family get away with 
murmurs of regret for what other people felt and so on--a mere 
slap on the wrist. In 2007, the Department settled misbranding 
charges with the company but required no admission of 
wrongdoing. Nobody spent a day in jail.
    And then documents obtained by our committee now show that, 
after this toothless 2007 settlement, members of your family 
proceeded to deliberately, aggressively, and recklessly push 
Purdue executives to flood the market even more with OxyContin, 
including by targeting high-volume prescribers and pushing 
higher-strength doses of the drug.
    Consider this email that Dr. Richard Sackler sent in March 
2008 to the CEO of Purdue. He wrote, quote, ``I want the 
organization to stretch, not idle, as so much of it has for a 
long time.'' Dr. Sackler was complaining about corporate 
revenues as OxyContin sales more than doubled to hit an 
extraordinary $2.3 billion. That is the consequence of 
government complicity with this kind of corporate misconduct.
    The DOJ settlement requires Purdue--now, this new 
sweetheart deal requires Purdue, but not your family, to set up 
a public document repository containing all the documents 
Purdue handed over to DOJ. But the repository doesn't come into 
being until after bankruptcy is over, and it doesn't apply to 
documents in the control of your family.
    So, I want to ask you, Mr. Sackler, right now about the 
transparency that you say you champion. Will you commit, today, 
to the U.S. Congress and to the American people to contribute 
any documents that you have to the public document repository 
that's being created as a result of this settlement?
    Mr. David Sackler. I have no problem with transparency with 
everything that is relevant to Purdue as it relates to the 
Sacklers--none at all.
    I think people have a misimpression through various media 
sources of the level of scrutiny that the family has gone 
through as a result of the bankruptcy proceedings and the 
investigation hearing. I don't say that as a complaint, but I 
think people need to understand that a blanket commitment to 
the----
    Mr. Raskin. OK.
    Mr. David Sackler. Well, OK. Very well.
    Mr. Raskin. Will you turn over the documents that you have 
produced to the Department of Justice?
    Mr. David Sackler. That's a question for the lawyers, sir, 
but I think----
    Mr. Raskin. OK. Well, let me--I've got to two final 
questions.
    It's been reported that members of your family talked about 
milking the company and then proceeded to remove millions or 
billions of dollars in excess profits from it prior to 
bankruptcy.
    Did you participate in conversations where you talked about 
milking the company and getting as much money out as quickly as 
you could before the bankruptcy took place?
    Mr. David Sackler. I can't recall those specific 
conversations. However, I disagree with your assertion of even 
what ``milking the company'' meant in that context. I think 
it's been badly--it is being badly taken out of context.
    Mr. Raskin. All right.
    Finally, as part of this settlement discussion, the idea 
has been floated of turning OxyContin--essentially, turning 
this into a public-benefit corporation. A lot of attorneys 
general, at least 24 of them, oppose this idea. They want it 
stripped out.
    I would like to submit for the record, Chairwoman Maloney, 
a letter from the state attorneys general and specifically from 
the attorney general of Massachusetts, Ms. Healey, who says 
that this is a perversion of the justice process, essentially, 
to get the government involved in promoting this drug.
    And so I would like to submit that for the record, if I 
could.
    Chairwoman Maloney. So, ordered, so ordered. Thank you for 
bringing it up.
    Mr. Raskin. I will yield back. Thank you.
    Chairwoman Maloney. I want to really comment very briefly 
on your focus on transparency, that talking to many of the 
families, they want to see more documents. They want to see 
what's being held in these court decisions. And I for one am 
going to put up on our website every document we got preparing 
for this hearing so that the public can see these emails, the 
other information that we brought together. Thank you for your 
questioning.
    The gentleman from Kentucky, Mr. Comer, is now recognized 
for five minutes. I do not believe there are other speakers on 
your side that I can see on the roster here. Mr. Comer, thank 
you again for your cooperation and help with this hearing. 
You're now recognized for as much time as you would like.
    Mr. Comer. Thank you, Madam Chair.
    I'm going to address my questions for the Sackler family. 
And, first of all, do you all consider the doctors who 
prescribed OxyContin complicit in any of this? We've already 
had extensive questions and discussion about the damage caused 
by OxyContin, not just in rural America, but in basically every 
county in America. Every family in America has someone they 
know who has suffered addiction, and the cost to society cannot 
be measured. But I'm wondering, do you blame any of this on the 
doctors who prescribed OxyContin?
    Mr. David Sackler. I would say that this is an incredibly 
complex problem with roots dating back long before the 
introduction of OxyContin. And the medical establishment as a 
whole and doctors as a whole are the gatekeepers of 
prescription opioids. These products are available only by 
prescription. So, one has to examine that as a cause.
    As far as blame, I'm not here to assign blame at all. I--
but I do----
    Mr. Comer. Well, let me stop you there. So, I ask that 
question because I don't know what role doctors played. I don't 
know if they made informed decisions or if they were misled. 
That leads me to my next question. Did you ever approve a 
marketing plan which failed to adequately inform doctors of the 
major risks of OxyContin, such as abuse, addiction, overdose, 
and death?
    Mr. David Sackler. I believe the record will be clear that 
I never did such a thing.
    Mr. Comer. In 2007, Purdue Pharma pled guilty to 
misbranding OxyContin based on claims it was less addictive 
than short-term alternatives. This year, Purdue pled guilty to 
very similar charges based on actions that appear to have been 
directed by your family, the Sackler family. Your family 
profited a great deal from OxyContin.
    Do you believe opioid victims and their families have been 
adequately compensated for the deception perpetrated by Purdue 
Pharma and your family?
    Mr. David Sackler. I--I would like to address that in two 
parts, if I may. The first part is, I believe that the record 
in full will clearly demonstrate that the current guilty plea 
that Purdue has undergone was activities that the board was 
completely unaware of and was contrary to board instruction, in 
some cases. So, I think that will be very clear when--when the 
documents are released.
    However, compensation for victims is an incredibly 
important thing. And it's my belief that the bankruptcy process 
offers the best and most transparent and most equitable way to 
address the opioid epidemic. And I know it's been widely 
criticized in the media, but I think that's a lack of 
understanding. It permits for an orderly distribution of funds, 
whatever they may be. It creates a public benefit company, the 
first of its kind in the pharmaceutical industry.
    Mr. Comer. Let me interrupt you there. Let's talk about the 
bankruptcy process. Having served as a director of a community 
bank for many years, I'm very familiar with the bankruptcy 
process. And what often happens is companies get into trouble, 
financial trouble, and they file bankruptcy, and then they 
suddenly reappear, as you are mentioning, in a new company. And 
they just wipe away all the debt that they have to their 
creditors. And it's--you know, it's not my favorite part of the 
law watching companies be able to shield by a bankruptcy.
    So, it's my understanding that your family has offered 
creditors, in the bankruptcy proceeding, just $3 billion to 
avoid larger pay out to victims. Is your family attempting to 
take advantage of the bankruptcy system to shield its billions 
from justice for the American people?
    Mr. David Sackler. No. I don't believe that is accurate in 
any way.
    Mr. Comer. Well, it would seem otherwise, and I think that 
everyone on this committee would disagree with your answer to 
that last question. And, look, we don't agree on a lot on this 
committee in a bipartisan way, but I think our opinion of 
Purdue Pharma and the actions that your family, I think we all 
agree, are sickening. And it's not just the cost to the 
families; it's the cost to society.
    Now, every county in my congressional district, I have 35, 
one of the things on their wish list is always more money for 
drug rehab centers, more money for help, to help people and 
help communities cope with the expense of their faults. And 
this started--this all started through OxyContin and marketing 
and misleading doctors and misleading patients about the 
benefit of your drug.
    I am sympathetic to people that have pain. There are people 
in America that have legitimate pain, and they need help for 
that pain. But when you say that you didn't know when you 
created this drug what would happen, that may be true, but what 
I point out in my questioning, what others have pointed out 
today is your company knew this, that it was addictive, that it 
was creating deaths, creating disruptions, creating all sorts 
of havoc in America, but yet you continue to marketing--you 
continued marketing this product.
    Now, it even got to the point to where everybody knows the 
damages of OxyContin. So, you file bankruptcy to avoid the 
majority--the overwhelming majority of the costs that you've 
passed on to society. And you're going to reorganize, I assume, 
in a, you know, benefits corporation or however you're going to 
reappear, and continue to profit; maybe not with OxyContin, but 
you continue to operate, when I know of doctors that have 
overprescribed pain pills that have lost their licenses.
    I know of families that have lost loved ones. I know 
families that have been torn apart because of what your family 
and your company continue to market to the American people, and 
it's just sickening to me. And I share the outrage of just 
about every American. And I am just sick to see what it appears 
to me as a family and a company that's going to use the 
bankruptcy process to get out of this and to continue to be one 
of wealthiest families in America. It's unacceptable. And I 
just--I'm just sickened, sickened the more I read about the 
actions of Purdue Pharma.
    With that, Madam Chair, I yield back.
    Chairwoman Maloney. Thank you. Thank you, Mr. Chairman, for 
your cooperation, ranking member, on this.
    And I ask unanimous consent to place in the record a 
statement by the Massachusetts Attorney General, Maura Healey, 
that mirrors many of the things that you were saying. Just a 
quote from it: If we let powerful people cover up the facts, 
avoid accountability, or create a government-sponsored 
OxyContin business, that's not justice; it's offensive and 
wrong.
    I ask unanimous consent to put her statement, it's quite 
long, into the record.
    So, ordered.
    Chairwoman Maloney. I now recognize Mr. Sarbanes. He is 
recognized five minutes. Mr. Sarbanes.
    Mr. Sarbanes. Thank you very much, Madam Chair. Can you 
hear me?
    Chairwoman Maloney. Yes, we can. Thank you.
    Mr. Sarbanes. All right. Thanks so much.
    So, we've heard plenty of testimony today about the 
timeline here that in 2007, Purdue Pharma pleaded guilty to 
illegally misbranding OxyContin in this effort to mislead 
doctors and patients about the drug's risk of addiction. They 
would fine--Congressman Raskin indicated that that was really 
just a kind of minor slap on the wrist for the company, and I 
certainly agree with that.
    But what's breathtaking here is that it looks as though 
that settlement and that fine that was entered into by the 
company was a signal to the family that with litigation coming 
down the road, the efforts to maximize profits from OxyContin 
should be redoubled. You basically went to the math to try to 
pull as much money and profit from the company and from its 
activity as you could because you knew that this cash cow was 
going to come to end, the gravy train was going to be over at 
some point.
    Just stepping back, looking at it in those very simple 
terms, you can't--a reasonable person cannot reach any other 
conclusion about the behavior of the family in the wake of that 
2007 penalty that you experienced. So, that was cynical. And I 
think, as you can tell from the committee's perspective here, 
we view that as really obscene in terms of what you decided to 
do next.
    So, Dr. Landau, I'm not going to ask you a question, but I 
do want to quote again, I think Congressman Cooper mentioned, 
that you at one point acknowledged that Purdue was operating in 
a way where the board of directors was serving as the de facto 
CEO. So, this notion, and we've heard it today from the family, 
that, oh, you know, we were just following management's 
recommendations and so forth, is a little bit absurd, because 
the family had control of the operations, they knew exactly 
what was happening, and they were willing to push this agenda 
in terms of what ended up broadening the addiction crisis 
across the country.
    According to internal documents that were obtained by the 
committee and the Massachusetts Attorney General, the Sacklers 
as board members were ordering a company--this was, again, 
after the slap on the wrist in 2007--to hire hundreds more 
sales reps, directed those reps to target the highest 
prescribers of OxyContin, push highest strength dosage of 
OxyContin, approve misleading marketing materials that 
downplayed the risk of the addiction, rewarding employees for 
selling more drugs. There was one marketing campaign called 
``Evolve to Excellence'' with the design to, quote, turbo 
charge sales by reorienting most of the company sales efforts 
to target the highest prescribing doctors. And this would--
where they would write and target sales visits to doctors who 
wrote 25 times as many OxyContin prescriptions.
    You knew what was happening. You knew what was going on. 
This was designed to pull as much money out of the company as 
you possibly could before these penalties and lawsuits and 
other actions were going to come at you.
    The company's patient saving card supposedly intended to 
expand access to OxyContin were consistently tracked and 
evaluated because Purdue knew these cards were a powerful way 
to keep patients on opioids longer. Is that right, Mr. Sackler?
    Mr. David Sackler. My understanding is that the patient 
savings cards were designed to help people afford their 
medication.
    Mr. Sarbanes. OK. That's a perfect answer, because it 
represents the way in which the narrative that you've put 
together--everything that was, in fact, designed to take 
advantage of people and exploit their weakness was presented by 
Sackler and Purdue as trying to help those patients. This is 
where the crisis originated. This is why thousands of people 
across the country became addicted, because of this rosy story 
and narrative that you painted.
    The Sacklers, not just Purdue, the Sacklers need to be held 
accountable. Before 2007, I think it's fair to say that at best 
the family was morally blind in its actions and conduct. After 
2007, the family became morally bankrupt. Not financially 
bankrupt. You're doing very well. You're rich. And that's 
obscene when you look at the situation of these families, this 
wasting across the countries that's been caused by what the 
family did. I hope that there will be some repercussion, some 
consequence for the family for its conduct.
    And with that, I yield back, Madam Chair.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    The gentleman from Alabama, Mr. Palmer, is now recognized 
for questions. Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairman.
    You know, the United States is reported to consume about 90 
percent of the world's opioids. And part of this goes back to 
something that was in the Affordable Care Act that mandated 
that one percent of Medicare in-patient payments be withheld 
from hospitals based on patient satisfaction. And this is 
something that we had a field hearing in this committee, Madam 
Chairman, you may have been there, at Johns Hopkins Hospital, 
and we talked about this as part of problem.
    The issue that I want to bring up is the role of Purdue 
Pharma in pushing this. The Joint Commission is a U.S.-based 
nonprofit tax exempt 501 organization that accredits more than 
22,000 healthcare organizations' programs. According to a Wall 
Street Journal article, The Joint Commission published a guide 
sponsored by Purdue Pharma on pain management. The guide 
reportedly stated some clinicians have inaccurate and 
exaggerated concerns about addiction, tolerance, and risk of 
death related to the use of OxyContin. And so there was no 
evidence of addiction as a significant issue when persons are 
given opioids for pain.
    What I would like to know from Mr. Landau is, did Purdue 
Pharma fund that--any of that research done by The Joint 
Commission?
    Dr. Landau. With respect, Representative Palmer, I don't 
know. I said in earlier testimony that before I became a CEO, I 
was entrenched in research and development, and that would have 
been an area outside of my area of responsibility. I could get 
back to you certainly after the hearing with that information.
    Mr. Palmer. Mr. Sackler, did Purdue Pharma fund any of the 
research published by The Joint Commission?
    Mr. David Sackler. I simply don't know. I unfortunately----
    Mr. Palmer. The answer to the question is yes.
    There was--OxyContin was approved by the Food and Drug 
Administration in 1995, and your company mounted an aggressive 
marketing campaign that included warning that--the FDA warned 
in 2003 it was misleading. Are you aware of that?
    Mr. David Sackler. My recollection is that the FDA's 
warning letter in 2003 related to a single ad in a journal 
article.
    Mr. Palmer. What I'm pointing out here is what appears to 
me to be an intentional effort to mislead not only patients, 
but physicians and hospitals. And working through The Joint 
Commission, which has tremendous influence obviously, they're 
an accrediting organization, and your company has heavily 
invested in them. They are a 501(c)(3). You've made significant 
contributions through your company to The Joint Commission. And 
it seems to me that, obviously, Purdue knew that there were 
major problems with OxyContin, but you aggressively, and I 
think in a dishonest way, pushed this drug on doctors. And it 
only ramped up after the changes in the Affordable Care Act 
that made pain management one of the key factors in whether or 
not hospitals could get their full payments from Medicare for 
taking care of Medicare patients.
    The Joint Commission even went so far as to find pain 
management as a patients' rights issue. That's disturbing. And 
I just want to know how much money Purdue Pharma put into The 
Joint Commission.
    Mr. David Sackler. I--I don't know.
    Mr. Palmer. Well, would you be willing to get that 
information or, Mr. Landau, get that information and provide 
that to this committee?
    Dr. Landau. Yes. I'll take that request back for sure, 
Representative.
    Mr. Palmer. OK. Madam Chairman, can the committee make sure 
that they followup on that?
    You're muted.
    Chairwoman Maloney. We will followup. Thank you.
    Mr. Palmer. Thank you very much. I see that my time has 
expired.
    I would just like to conclude by saying this, that Alabama 
has the highest use of opioids in the country. Now, I know West 
Virginia has the highest death rate.
    When we had this field hearing at Johns Hopkins, there were 
plans in place to remove the pain management from the ratings 
for the hospitals, and I think that's been done. But it was 
only after we were seeing 60,000 to 70,000 people per year die 
from drug overdoses. This is an unspeakable tragedy that has 
taken place in this country, and I think Purdue has a 
tremendous responsibility here to make it right.
    Madam Chairman, thank you for the indulgence. I yield back.
    Chairwoman Maloney. Thank you.
    The gentleman from Vermont, Mr. Welch, is recognized for 
five minutes.
    Mr. Welch. Thank you, Madam Chair.
    Dr. Sackler, you served on the board from, as I understand 
it, 1990 to 2018. Is that correct?
    Dr. Kathe Sackler. Yes, that's correct.
    Mr. Welch. So, you were there when there was the rollout of 
OxyContin in 1996, correct?
    Dr. Kathe Sackler. Yes.
    Mr. Welch. And I understand that that rollout occurred even 
as the study showed that 82 percent of patients had an adverse 
reaction. Do you recall that?
    Dr. Kathe Sackler. No, I was not aware of that.
    Mr. Welch. In 1997, there was a memo issued by Purdue to 
the sales representatives, and I want to quote from this email: 
Your priority is to sell, sell, sell OxyContin.
    Do you recall that?
    Dr. Kathe Sackler. I do not.
    Mr. Welch. Well, you were on the board. Is that consistent 
with your recollection of the goal that Purdue had to make 
OxyContin the most used drug in the world?
    Dr. Kathe Sackler. That was not my goal. And I don't recall 
hearing that espoused as the board's goal either.
    Mr. Welch. Let's just go through this. Purdue set up a very 
elaborate system to have doctors go to Pebble Beach and be 
given fees for speaking, to have sales representatives trained 
to knock on doctors' doors.
    Do you recall those matters that were part of the sales 
plan?
    Dr. Kathe Sackler. As a director of the company, I would 
not know the specific actions and speakings of the sales 
department.
    Mr. Welch. I'm not going to go into the details on that, 
but there was a fundamental decision that the board made to 
sell, sell, sell OxyContin.
    Now, do you know the name of the company Practice Fusion?
    Dr. Kathe Sackler. I never heard of the name of the company 
Practice Fusion until I was----
    Mr. Welch. Well, your--Purdue Pharma had an agreement with 
them. It was a medical records organization. And you--it 
provided a digital alert to doctors about opioids, in an 
increase prescriptions in your company, Purdue Pharma, gave 
Practice Fusion a $1 million kickback. Do you know about that?
    Dr. Kathe Sackler. I was in the middle of trying to answer 
the first question to say that I never heard of Practice Fusion 
until my attorneys advised me of it as regards--as regards to 
Purdue plea.
    Mr. Welch. I don't have much time, so I have to interrupt.
    Dr. Kathe Sackler. Sorry. I learned about it through the 
Purdue plea.
    Mr. Welch. All right. There was a Wall Street Journal 
article that reported that Wharton, Notre Dame, and the RAND 
Corporation did a study that showed in states where you did 
your marketing program, you Purdue, that it was vastly more 
[prescribed] than in five states where you didn't. Does that 
sound right?
    Dr. Kathe Sackler. Again, I don't--I didn't have that 
knowledge and I don't have that recollection. But if you say 
so, I accept that.
    Mr. Welch. These are all Federal documents.
    Dr. Kathe Sackler. Yes, I trust they're accurate.
    Mr. Welch. All right. Now, your career on the board 
coincided with another person who sold, as his career, drugs. 
His name was Juan Guzman, El Chapo. I don't know if you ever 
heard of him.
    Dr. Kathe Sackler. In the newspaper I've seen his name.
    Mr. Welch. All right. He was sentenced to life in prison. 
And Purdue Pharma pleaded to three felonies, yet no one from 
the Sackler family is in jail. Many of us think that's not 
right.
    But let me ask you this: The Federal Government is seeking 
$12 billion in assets from Juan Guzman, El Chapo, the amount 
that audits suggest he made in the illicit sale of drugs. Do 
you think it's the right of the taxpayers to get that money 
back from Mr. Guzman?
    Dr. Kathe Sackler. I--I don't think I can give you an 
answer to that. I don't know anything about----
    Mr. Welch. You don't have an opinion about----
    Dr. Kathe Sackler. I mean, it sounds----
    Mr. Welch. All right. Let me ask you this: The audit that 
was done of the Sackler family and Purdue concluded--this is 
Federal--that the profits to you and to your family members is 
$12 billion. Is there any reason you can give us why every 
single dollar should not be returned to the government for 
distribution to the victims of Purdue Pharma?
    Dr. Kathe Sackler. I really don't know the answer to that 
either. I'm sorry.
    Mr. Welch. Well, you do know the answer. It's a yes or no.
    Dr. Kathe Sackler. Can you repeat the question? Maybe I 
didn't understand it.
    Mr. Welch. The government is seeking $12 billion from El 
Chapo as the profit of his sales. The Federal Government audit 
of the Sackler family is that your family, you and your fellow 
members of the Sackler family, have $12 billion in profits from 
your aggressive marketing and sales of OxyContin. Is there any 
reason why that money, every single dollar, should not be 
returned and recovered by taxpayers for distribution to 
families?
    Dr. Kathe Sackler. I would think that you would agree 
that--that the way that such a determination would be addressed 
would be for the Justice Department to conduct proper 
investigations and procedures, which I believe they are doing. 
And, you know, the--so I think this is up to the responsible 
government agencies. I don't think this is something I can 
opine on actually.
    Mr. Welch. El Chapo got a life sentence and he's going to 
forfeit $12 billion. The Sackler family, through Purdue, has 
three felony convictions, but no one's in jail and it has its 
billions still.
    Dr. Kathe Sackler. Excuse me, the Sackler family doesn't 
have a felony conviction. Purdue Pharma has a felony 
conviction. I'm an individual person. I worked as a director at 
Purdue. I'm a beneficiary owner of Purdue, but I am not--there 
are no allegations that have been put forth or accusations that 
have been put forward against me or other directors of Purdue. 
There were also five or six independent, you know, outside 
directors that participated fully in every decision that was 
made at the board of directors. And I think that it's--
including, you know, some of the decisions you've cited today. 
And I think that that's the status as of now.
    Mr. Welch. Well, I'll let this--my time is up. I'll 
conclude that your testimony is you don't know nothing about 
nothing. And things happened, but you don't know how. And 
people are responsible, but you don't know who.
    Thank you. I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentlewoman from Illinois, Ms. Kelly, is recognized.
    Ms. Kelly, you're now recognized. Can you hear us?
    Ms. Kelly. Yes, I can. Thank you, Madam Chair, for holding 
this hearing.
    I would like to ask a few questions about Purdue's efforts 
to target opioid prescribing to seniors and patients covered by 
the Medicare programs. The Medicare program is a crucial part 
of America's safety net and our Nation's promise to its 
seniors. Millions of seniors rely on Medicare part D to cover 
the costs of their prescription drugs.
    It appears seniors who access healthcare through Medicare 
were critically important to OxyContin sales. One internal 
Purdue document stated that the company targeted, and I quote, 
patients over the age of 65 as more Medicaid part D coverage is 
achieved.
    Purdue's strategy to target Medicare patients had many 
dimensions and it extended to the company's approach to 
providers and prescribers. In Massachusetts, for example, a 
Purdue supervisor coached sales representatives to follow the 
company's quote, ``geriatric strategy,'' when promoting 
OxyContin providers, and to, quote, keep the focus on the 
geriatric patients.
    Mr. Sackler, are you familiar with Purdue's geriatric 
strategy?
    Mr. David Sackler. I'm not sure I'm familiar in detail. But 
what you read, I am familiar with.
    Ms. Kelly. As part of this strategy, Purdue made false 
claims about the OxyContin's benefit to elderly patients, and 
even provided doctors with staged photographs featuring fake 
patients to humanize the sale, and I quote, bring the heart 
into it. For example, sales reps allegedly told one 
Massachusetts doctor that putting elderly patients on OxyContin 
would improve safety from potential falls, when in reality, 
elderly patients on OxyContin have increased risk of falling 
and breaking a bone.
    Dr. Landau, you're a trained physician. Can you point the 
committee to scientific evidence demonstrating that OxyContin 
would improve safety for elderly patients from potential falls?
    Dr. Landau. Representative, I'm not aware of that 
communication, but I can't at this time. No.
    Ms. Kelly. Purdue's focus on Medicare became further 
entrenched after instituting McKinsey's ``Evolve to 
Excellence'' program. Part of this plan included ranking 
prescribers based on, quote, ``value deciles.'' Access to 
Federal healthcare programs like Medicare was one of the 
metrics used to analyze prescribers. Purdue also rewarded 
doctors who were high-volume Medicare prescribers under this 
plan.
    Mr. Sackler, you and the rest of the board personally 
approved the ``Evolve to Excellence'' plan, correct?
    Mr. David Sackler. No. I believe elements of it were 
incorporated into management's proposal, which was then 
approved by the board. But, no, I don't believe the entire 
``Evolve to Excellence'' plan was ever voted on by the board in 
that way.
    Ms. Kelly. Well, the buck stops with all of you. So, even 
if you didn't vote on the whole plan, the buck still stops with 
you.
    Between 2013 and 2017, Purdue paid the highest volume 
Medicare prescriber of OxyContin approximately $475,000, for 
speeches. According to internal communication obtained by DOJ, 
the prescriber was, quote, ``not a strong speaker or 
presenter,'' but he did engage in, quote, ``heavy prescribing, 
particularly in large doses for a long period of time.''
    I just want end by saying, my husband had surgery and when 
he finished his surgery, he was prescribed opioids, OxyContin, 
but my husband decided not to take it. And the interesting part 
about my husband is that he's a trained anesthesiologist.
    With that, I'll yield back.
    Chairwoman Maloney. Technical difficulties.
    The gentlelady yields back.
    And I now recognize the gentleman from California, Mr. 
DeSaulnier. You're now recognized. And thank you for your 
leadership on this issue.
    Mr. DeSaulnier. Thank you, Madam Chair.
    As bad as this has been--and I would like to remind people 
that Purdue Pharma is a privately held company, owned by the 
Sackler family, largely created by the Sackler family, through 
multiple generations. And there's been a lot of fault on this 
issue: distributors, the FDA, the DEA, and Congress. We allowed 
for this marketing, whereas Mr. Palmer pointed out, the U.S. 
has less than five percent of the world population but over 80, 
90 percent of the use of opioids. It's supposed to relieve 
pain, and it does, but it's also been abused. And the marketing 
has been at the crux of this. And it's been--in many ways, 
Purdue Pharma is a marketing company as much it is a drug 
company.
    So, it's so important, Madam Chair, that we pursue this. 
Other members have brought up the issue of justice and evil. We 
have to go beyond this hearing. And I want to thank all the 
members and the bipartisanship that has brought this.
    For all the damage that has been done, it's even bigger 
than this issue. It's--part of what's wrong with this country 
is that people think that they can ask for forgiveness but not 
ask for permission and not think about the consequences of 
their actions. It's somebody else's fault.
    I became involved in this issue, like many of us do, 
because of constituents, parents who lost children. One, April 
Rovero, has become a leader on these issues. Her son died, 
fortunately in justice. The doctor who was writing that 
prescription, in a well-publicized story, a case in Los 
Angeles, was indicted and convicted and is now in jail. Bob 
Pack, the other constituent, lost a child while they were out 
walking on a Sunday afternoon, the family, wife was pregnant 
with twins, when they were hit by a car, a Mercedes, a woman 
who was using this product. And he has dedicated himself.
    I at the time was in state senate and I introduced a series 
of bills and worked closely with the then attorney general, 
soon to be Vice President of the United States, Ms. Harris. And 
one of the bills simply took our prescription monitoring system 
and updated it so that the DOJ would have real-time information 
about who was abusing, whether it was the pharmacies, doctors, 
or clients.
    The pharmaceutical industry fought that, fought it very 
hard. I couldn't get it out of the committee of jurisdiction of 
which I was a member of, the health committee, even though I 
had been promised votes by colleagues. Thanks to Los Angeles 
Times, and I want to thank all the writers, people who have 
written books, phenomenal writing on this. They're not to 
blame. They are the people who brought this to our attention, 
and the journalists who have cover these stories.
    It came to my attention, it was obvious to me as I watched 
this up closely, that the pharmaceutical industry, and it 
wasn't just Purdue Pharma, but the pharmaceutical industry was 
determined to make sure that we didn't have that information, 
because they wanted to continue to addict people, they wanted 
to continue to make money. This was a perfect business model. 
You had a product that would addict your clients. You marketed 
it to people who didn't need the product. And the physicians 
were told it was safe.
    Dr. Landau, you are--you wrote a note that said: There are 
too many prescriptions being written, too high a dose for too 
long, for conditions that often don't require them, by doctors 
who lack the requisite training in how to use them 
appropriately.
    But isn't it true, Doctor, that, granted, prior to you 
having the position you have, that Purdue Pharma, at the 
direction of the Sacklers, Sackler family members, spent money 
convincing doctors that there was no risk or very little risk? 
Isn't that true?
    Dr. Landau. So, Representative, that's not my 
understanding, no.
    Mr. DeSaulnier. OK. Well, the record states otherwise.
    So, while I appreciate and believe in redemption, I'm not 
interested in contrition here. There's too much damage that's 
happened, and justice has to be met. As I said in my opening 
comments, people of color, poor people, do much less damage to 
this country and don't get to come in and say they're sorry, 
although I'm sure they are sorry when they're caught. There has 
to be justice in this case.
    And I hope we pursue that in this venue, Madam Chair, but I 
also hope the people in the Department of Justice and at the 
state level continue to pursue justice, because if they don't, 
this is going to happen again.
    I yield back.
    Chairwoman Maloney. Thank you for your heartfelt comments. 
And I can assure you we are planning future hearings and we 
need your help in doing that.
    The gentleman yields back.
    The gentlewoman from the Virgin Islands, Ms. Plaskett, is 
recognized for five minutes.
    Ms. Plaskett. Thank you very much, Madam Chairwoman. And 
thank you to the witnesses for being here this morning.
    Documents that have been obtained through Federal and state 
investigation have very revealing tactics used by the company 
Purdue to drive up sales and medically, unnecessarily prescribe 
OxyContin and other opioids. And there is within those 
documents allegations and information as to the Sackler 
family's involvement in these efforts. I wanted to talk about 
some of that documentation and ask you all if you would answer 
some of that.
    Mr. Sackler, I would like to ask you about an email your 
father, Dr. Richard Sackler, sent in March 2008. This is 
document 5 in your materials. Your father sent this email after 
receiving sales projections for the upcoming year, which he 
apparently felt were not ambitious enough. He wrote an email to 
the then CEO, John Stewart, and members of your family, 
including a witness here, Dr. Kathe Sackler, calling the 
projection, quote, a typical low-ball number, and asking the 
family to, quote, give me support in these matters. He 
concluded, quote, I want the organization to stretch, not idle, 
as so much of it has for a long time, end quote.
    Mr. Sackler, by ``stretch,'' I assume he meant he wanted to 
increase Purdue's revenues. Is that correct?
    Mr. David Sackler. Well, in this case, he's referring, I'm 
pretty certain, to the forecasting effort that Purdue was 
making and wanting to get better forecasting out of management. 
I think that that's clear.
    Ms. Plaskett. So, are you saying better forecasting, 
meaning more detail, or are you saying forecasting of sales 
meaning increase in sales, thereby increasing revenues?
    Mr. David Sackler. No. I believe what had happened prior to 
this is that there had been a number of years where management 
had set sales targets that they had exceeded. And his desire, 
as I read this, is for a more accurate sales forecast. And 
that's relevant because it relates to the expenses that a 
company can set, whatever that forecast is.
    Ms. Plaskett. I understand that. It's important for, as 
well, for shareholders to have an accurate information as to 
that.
    When he says, ``I want the organization to stretch, not 
idle,'' what did you mean by that? Stretch would not mean 
necessarily to--what did he mean by that, in your opinion?
    Mr. David Sackler. Well, I'm not entirely sure what he 
meant by that, but I take it to mean work hard to achieve 
ambitious goals.
    Ms. Plaskett. So, you knew what he meant in the first part, 
but now you're not sure what he meant when he said, ``I want 
the organization to stretch''?
    Mr. David Sackler. I've given you my best judgment as to 
what I think he means----
    Ms. Plaskett. So, when he asks for support----
    I'm sorry. Go on, sir.
    Mr. David Sackler. No, please go on.
    Ms. Plaskett. When he asks for support on these matters 
from the family, it looks as if he's asking for the family 
members to take the same position during a board meeting or a 
vote. Would that be a correct assessment of the support that he 
would need on those matters?
    Mr. David Sackler. He may be asking for it, but I don't 
know if he received it. And quite often, he----
    Ms. Plaskett. I didn't ask you if he received it. I asked 
you if by support he meant for the family members to take the 
same position during a board meeting or a vote.
    Mr. David Sackler. I believe that's what he's asking for, 
yes.
    Ms. Plaskett. Thank you. Your father continued to use the 
Sackler's family leverage or request leverage within the 
company to advocate for higher earning targets. According to 
the Department of Justice, Dr. Richard Sackler again opposed 
the proposed budget, complaining that it would, quote, lead to 
an OxyContin tablet forecast that is almost the same as our 
sales of 2009, end quote. When an executive countered that 
there is no basis for a higher projection, he responded, that, 
quote, this is a matter that the board will have to take up and 
give you a settled direction, end quote.
    Dr. Landau, quote, ``settled direction,'' just meant that 
the board would override management and set the sales target. 
Is that what would happen?
    Dr. Landau. Representative, I'm not sure I could answer. 
I'm not certain I was part of those conversations, and I'm not 
sure what he meant by that.
    Ms. Plaskett. Well, I'm sure you've seen these documents 
before. What would you take, as a CEO of this corporation, a 
settled direction that a board would have to take up and give 
you as an executive?
    Dr. Landau. I think a settled--just generally speaking, a 
settled direction means alignment or agreement on whatever the 
issue is in question so that that could be communicated to 
management.
    Ms. Plaskett. And they would--the board would agree on that 
and give that direction to management, correct?
    Dr. Landau. Well, in this instance, I'm not certain. As I 
mentioned, I'm not----
    Ms. Plaskett. I didn't ask if you were certain if it 
happened; I asked you if that is what could happen.
    Dr. Landau. Any number of things could happen. Again, I'm 
not part of that conversation.
    Ms. Plaskett. Is it from one of those scenarios, Doctor?
    Dr. Landau. Potentially, I suppose.
    Ms. Plaskett. You suppose?
    Dr. Landau. I'm not really sure what you're asking me, 
Representative.
    Ms. Plaskett. I think I was very clear in what I asked you, 
which was, in the matter of the board taking up and giving 
settled direction, does that mean that a board could override 
management and set the sales targets of the company?
    Dr. Landau. I would say that that is possible, but I'm not 
certain that happened.
    Ms. Plaskett. OK. Thank you. Finally a direct answer.
    I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    I now recognize the gentleman from California, the Vice 
Chair Gomez is recognized. Congressman Gomez.
    We can't hear you.
    Mr. Gomez. Thank you, Madam Chair. Can you hear me now?
    Chairwoman Maloney. Yes, we can.
    Mr. Gomez. Thank you, Madam Chair.
    One of the troubling aspects of the Sackler family's role 
in the opioid epidemic, and there are many, is how you actively 
deceived doctors and the public about the dangers of 
addictiveness of OxyContin.
    Mr. Sackler, it is a scientific fact that OxyContin is more 
potent than morphine, correct?
    Mr. David Sackler. Though the FDA has removed relative 
potency from the label, I believe at this point, I do agree it 
is a lot more potent than morphine.
    Mr. Gomez. Thank you. With that fact in mind, I want to ask 
you about a May 1997 email exchange that your father had with 
Michael Friedman, a senior executive who later became CEO of 
Purdue. In the email, Mr. Friedman told your father, quote, 
``We are well aware of the view held by many physicians that 
oxycodone is weaker than morphine.''
    Mr. Friedman ended the email by telling your father that he 
had no plans to correct the misconception. Your father agreed, 
telling Mr. Friedman, quote, I agree with you. Is there general 
agreement or are there some holdouts?
    A few days later, your father received an email from 
another Purdue executive, Michael Cullen. This is document 1 in 
your materials. Mr. Cullen--which is this email here. Mr. 
Cullen told your father that, quote, ``Since oxycodone is 
perceived as being a weaker opioid than morphine, it has 
resulted in OxyContin being used much earlier for noncancer 
pain.''
    Mr. Cullen ended the email by saying, quote, ``It is 
important that we be careful not to change the perception of 
physicians toward oxycodone when developing promotional 
pieces.''
    Instead of instructing Mr. Cullen to correct the 
misconception, your father forwarded the email to Mr. Friedman 
with positive feedback telling him, quote, I think that you 
have this issue well in hand.
    Purdue, under your family's leadership, then targeted 
doctors with more advertisements downplaying the addictiveness 
of the opioid. Let's play one ad from 1998.
    [Video shown.]
    Mr. Gomez. This--the claims of this video were clearly 
false. In fact, in 2007, Purdue pleaded guilty in Federal court 
to falsely promoting OxyContin as, quote, less addictive, less 
subject to abuse and diversion, and less likely to cause 
tolerance and withdrawal than other pain medications.
    Purdue paid over $600 million as part of that plea 
agreement. And Mr. Friedman pleaded guilty as well.
    Mr. Sackler, did you plead guilty in 2007?
    Can't hear you. Sorry about that.
    Mr. David Sackler. I did not. I was not a member of the 
board or had any other formal affiliation with Purdue in 2007.
    Mr. Gomez. Did your father, Dr. Sackler, plead guilty in 
2007? Just a simple yes or no is fine.
    Mr. David Sackler. I believe the Department of Justice 
investigated him. And, no, he did not plead guilty. That's my 
understanding.
    Mr. Gomez. Did anyone in the Sackler family plead guilty in 
2007?
    Mr. David Sackler. Again, the same answer. I believe the 
Department of Justice evaluated it and no member of the Sackler 
family pleaded guilty.
    Mr. Gomez. Yes. And the reason why we're asking that is the 
entire Sackler family has emerged from the plea agreement 
unscathed, and this has emboldened your family to continue its 
false and misleading promotion of OxyContin.
    In the years that followed, you ordered Purdue Pharma to 
hire hundreds more sales reps to visit doctors. You directed 
these sales reps to encourage doctors to prescribe the highest 
dosage of OxyContin, and continued to downplay the dangers and 
addictiveness of the drug. And now again, DOJ is settling its 
case against you without holding you or your family criminally 
liable for the deception of doctors and the public. I believe 
that the American people deserve better.
    With that, I yield back.
    Chairwoman Maloney. The gentlewoman from Massachusetts, Ms. 
Pressley, is recognized for five minutes. Ayanna Pressley.
    Ms. Pressley. Thank you, Madam Chair, for convening this 
important hearing.
    The question of opioid addiction has destabilized families 
and communities throughout the country, including in the 
Massachusetts Seventh, which I have the honor of representing. 
Now, while the Commonwealth in 2014 was the first state to 
declare opioids a public health emergency, my constituents are 
still, to this day, fighting addiction and trying to heal from 
the pain and trauma created by the Sackler family. Despite the 
havoc wreaked by the Purdue Pharma, community-based recovery 
centers have served as critical resources, like the 
Massachusetts Organization for Addiction Recovery and STEPRox, 
who have cared for my constituents with compassion.
    As the daughter of a parent who struggled with opioid 
substance use disorder, I know firsthand that we need to invest 
in these support systems and end the stigma and the 
criminalization of addiction. People who are battling addiction 
are not criminals. They are not misbehaving. They are managing 
a harrowing disease that afflicts them and impacts their family 
every single day.
    Mr. Sackler, yes or no, do you agree that addiction is a 
disease?
    Mr. David Sackler. I do, yes.
    Ms. Pressley. Dr. Sackler, yes or no, do you agree that 
addiction is a disease?
    Dr. Kathe Sackler. Yes.
    Ms. Pressley. Based on documents obtained from the 
Massachusetts Attorney General, that was not always your 
family's view, particularly when the opioid crisis was first 
unfolding and generating bad press for OxyContin. According to 
an internal email, marked as document 3, on page 4, Dr. Richard 
Sackler wrote, and I quote, The abusers are misbehaving in a 
way that they know is a serious crime. They are doing it in 
complete disregard of their duties to society, their family, 
and themselves. The notion that this is genetically programmed 
is nonsense, unquote. He went on to write, quote, ``The fact is 
that many other people have the same tendencies and are not 
drug abusers; they are criminals,'' unquote.
    Mr. Sackler, do you agree with your father's words that 
people struggling with addiction are criminals, yes or no?
    Mr. David Sackler. No, I don't. And in the 20--almost 20 
years since this was written, I know my father has both 
apologized for these words and has come----
    I'm sorry. Please go ahead.
    Ms. Pressley. Reclaiming my time.
    In one email, marked as document 2, on page 2, he wrote, 
quote, We have to hammer on the abusers in every way possible. 
They are the culprits and the problem. They are reckless 
criminals, unquote.
    Mr. Sackler, who do you believe is the criminal, the person 
struggling with addiction or the corrupt pharmaceutical 
executive that has monetized the addiction?
    Mr. David Sackler. Well, I--I don't believe that people 
struggling with addiction are criminals, though.
    Ms. Pressley. Are you----
    Mr. David Sackler. I don't believe----
    Ms. Pressley. Are you and your family?
    Mr. David Sackler. No----
    Ms. Pressley. I certainly vehemently disagree. I'm going to 
reclaim my time. And I also just want to take a moment to just 
acknowledge the equitable outrage which I appreciate from both 
sides of the aisle about this unjust predatory practice which 
have decimated communities and destabilized families. I wish 
that there had been those same sentiments during the crack 
cocaine epidemic which decimated urban communities and Black 
families still today.
    Blaming people with substance use disorder is shameful. 
Your family's rhetoric fuels the stigma and harmful policies 
that have denied people in need the resources they require to 
overcome their addiction. We do not need another failed war on 
drugs. What we need is a reckoning and accountability for drug 
companies who put profits over people and rob us of lives and 
freedom of our loved ones. You have created a nationwide 
epidemic. Four-hundred-fifty people have died.
    Let me be clear. People struggling with addiction are not 
criminals. Your family and Purdue Pharma, you are the 
criminals. You are the ones who disregarded your duties to 
society, and you should be ashamed of yourselves.
    I yield back.
    Chairwoman Maloney. Thank you. The gentlelady yields back.
    The gentlewoman from Michigan, Ms. Tlaib, is recognized. 
Ms. Tlaib.
    Ms. Tlaib. Thank you, Chairwoman.
    This question line, I would like to have it go toward Mr. 
Sackler. Just want to make sure he's listening.
    Mr. David Sackler. Yes, I am listening, Congresswoman.
    Ms. Tlaib. All right. I want to ask you a few questions 
about the effects of Evolve to Excellence. I think some of my 
colleagues had mentioned it, it's a sales campaign that you and 
your family approved as members of the board. Do you remember 
that campaign?
    Mr. David Sackler. Yes. It was a management-led initiative.
    Ms. Tlaib. Yep, yep. You run the management. So, the sales 
campaign intentionally targeted high prescribing doctors. And 
one particular doctor, Dr. 1, he actually was called 290 times 
between 2010 and 2018. That's more than three times a month for 
eight years.
    Yes or no, is that a lot of sales calls to one doctor, Mr. 
Sackler?
    Mr. David Sackler. I'm not certain where you're drawing 
that information from, so I--I can't really comment.
    Ms. Tlaib. [Inaudible] some of the lawsuits. This is 
information--again, you targeted high-prescribing doctors who 
had folks call them 290 times between the years of 2010 and 
2018.
    Purdue received three different reports of concern 
regarding Dr. 1--this is a real case--between 2009 and 2011. In 
2009, a local pharmacist reported Dr. 1 to Purdue, asserting 
that there were, quote, all kinds of problems with abuse of 
OxyContin related to Dr. 1.
    And, Mr. Sackler, just one year later, a 2010 report 
highlighted the same doctor, Dr. 1 was nicknamed the candy man, 
because, quote, she will immediately put every patient on the 
highest dose of narcotics she can.
    Does it trouble you that nearly 300 sales calls were placed 
to a doctor nicknamed the candy man, Mr. Sackler?
    Mr. David Sackler. Yes, it does, because the board had put 
in place systems and controls to prevent such things from 
happening.
    Ms. Tlaib. Well, I mean, is that a sign, Mr. Sackler, of an 
effective anti-diversion program to you?
    Mr. David Sackler. The board was never made aware of this. 
In fact, the board was--I'm sorry, I don't mean to talk over 
you.
    Ms. Tlaib. Mr. Sackler, I don't mean to talk over you as 
well, but it's just frustrating because your words don't match 
the actions. The constant--I've been listening; I'm always the 
last person to be able to ask questions, so I get to listen to 
much of your answers. And so just bear with me in my 
frustration that, again, your answers don't match up. I fully 
believe you would not be settling these cases out of court 
unless you were in the wrongdoing. OK.
    So, Purdue placed Dr. 1 on a no-call list in August 2010. 
However, sales representatives were told to resume calling her 
in October 2011, Mr. Sackler. And they continued to do so until 
May 2018. Dr. 1 is not an isolated incident. It actually shows 
the intent of your company, your family's company.
    Another doctor, who we can refer to as Dr. 2, was first 
flagged through his abnormally aggressive targeting practices 
in 2003, Mr. Sackler. And so then in 2013, the board of medical 
examiners filed a complaint against this Dr. 2. The complaint 
described the excessive amount of OxyContin that he prescribed 
to some patients. He wasn't--it wasn't until April 2013, a full 
10 years after it was initially flagged, that Dr. 2 was added 
to the do-not-call list. Between 2007 and 2013, Purdue sales 
representatives called Dr. 2--guess what, Mr. Sackler--146 
times.
    But the story doesn't end there. Purdue sales 
representatives removed Dr. 2 from the do-not-call list. Can 
you believe that? But still, they called him 117 times between 
2015 and 2018.
    So, Mr. Sackler, you sat--and, again, you are responsible 
here, because you sat on Purdue's board of directors while the 
company turned a blind eye to the dangerous practices and 
worked around these crucial safeguards.
    Did you take any action to prevent the company sales reps 
from calling dangerous prescribers like Dr. 1 and Dr. 2?
    Mr. David Sackler. Yes. I believe the record clearly 
demonstrates that the board took a significant number of steps 
to prevent the exact thing that you're reading. And I am 
frustrated and disappointed that they may have come up short, 
but I think----
    Ms. Tlaib. Yes. I mean, frustration and disappointment's 
great, but I think you need to pay up, and you need to really 
be held accountable for the fact that you all turned a blind 
eye or just pretended that you didn't know, but you benefited 
from it because you saw the money still continue to come in.
    The blame for producing dangerous sales tactics rests 
squarely with the Sackler family. You know it. That's your 
family's name. And
    [inaudible] the Sackler family established clear goals: 
They wanted more sales of prescription opioids at higher 
strengths. They incentivized it, for sales reps to meet those 
expectations.
    If someone, Mr. Sackler, in my district was caught flooding 
my district with opioids, we know damn well that they would be 
tried and locked up. They would be thrown into jail.
    So, my question is, why is it OK that people like you, who 
are directly responsible for causing a national opioid 
addiction pandemic, people who are directly liable for hundreds 
of thousands of lives lost, are instead rewarded with millions 
of dollars in salary and walk free? You're using our bankruptcy 
process and everything to walk free.
    People at the top of this company, including those 
testifying today, Madam Chair, should pay billions in 
compensation to families they devastated and serve time 
proportionate to the crisis they unleashed. That is being held 
accountable for deaths.
    These are family members, Mr. Sackler. Not enough apologies 
or words are going to make up for it. You all have to not only 
pay for it, but you all have to be treated equally as anybody, 
again, in my district that would be doing the same thing you 
all just did.
    Thank you. I yield.
    Chairwoman Maloney. The gentlelady yields back.
    And at the request of one of the witnesses, we're going to 
take a 10-minute recess. We will reconvene in 10 minutes, at 
the request of one of the witnesses.
    [Recess.]
    Chairwoman Maloney. The committee will come to order.
    And I recognize the gentlelady from the great state of 
Florida. Ms. Wasserman Schultz is now recognized.
    Ms. Wasserman Schultz?
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Around the time I was elected to Congress in 2004, south 
Florida was overrun by pill mills, so-called clinics where 
anyone with cash could walk away with dangerously addictive 
opioids. From August 2008 to November 2009, on average, a new 
pain clinic opened in Broward County, my home county, and Palm 
Beach County every three days. These pill mills caused 
suffering and death in my district and across the country.
    Dr. Sackler, while you were on the board of directors, 
Purdue Pharma kept detailed records on everyone who prescribed 
Purdue products as part of its Abuse and Diversion Detection 
Program. Is that correct?
    Dr. Kathe Sackler. I'm sorry, I didn't hear that. Can you 
please repeat that? I beg your pardon.
    Ms. Wasserman Schultz. Madam Chair, if I could have the 
time restored.
    What did you not hear?
    Dr. Kathe Sackler. I don't know what I didn't hear, because 
I didn't hear it. I'm having a little trouble hearing, and 
there was noise in the background, and I couldn't hear.
    Ms. Wasserman Schultz. OK. I don't have noise in my 
background.
    Dr. Sackler, while you were on the board of directors, 
Purdue Pharma kept detailed records on everyone who prescribed 
Purdue products as part of its Abuse and Diversion Detection 
Program. Is that correct?
    Dr. Kathe Sackler. The Abuse and Diversion Program, yes. 
Yes. I would--I guess.
    Ms. Wasserman Schultz. OK.
    If the data suggested high-volume prescribers were abusing 
or diverting prescriptions, they were placed on the Region Zero 
list, meaning that Purdue sales representatives should not 
continue to call the prescriber.
    Are you familiar with the Region Zero list?
    Dr. Kathe Sackler. I'm not familiar with that program. That 
program was overseen and managed by the legal department. The 
board did, however, have reports from the legal department 
about the program.
    Ms. Wasserman Schultz. OK.
    Dr. Kathe Sackler. That's who would know.
    Ms. Wasserman Schultz. Well, to go through, there were many 
problems with this Region Zero list, ranging from a lack of 
timely reporting to the fact that only a small fraction of 
specific high-volume prescribers ended up on the list.
    Purdue even encouraged sales tactics that increased the 
number of prescriptions filled by prescribers on this do-not-
call list. For example, Purdue allowed its agents to call 
prescribers who worked in the same practice as those on the 
Region Zero list. Sales representatives would also aggressively 
market OxyContin to the pharmacies used by high-volume 
prescribers.
    Dr. Sackler, are you familiar with those practices? And 
don't you think they undermine the efforts----
    Dr. Kathe Sackler. Absolutely not. I am not familiar with 
those practices, nor were any of those practices ever discussed 
or reported or mentioned at a board meeting.
    Ms. Wasserman Schultz. Then I'm going to move on. I'm going 
to move on to Mr. Sackler.
    Dr. Kathe Sackler. Sorry.
    Ms. Wasserman Schultz. Mr. Sackler, you sat on the 
company's board during this time. Is it true that Purdue staff 
regularly provided updates to the board of directors and he and 
you and members of your family regarding so-called, quote, 
``reports of concern'' about the abuse of Purdue's prescription 
opioids?
    Mr. David Sackler. I'm sorry, it is a little bit hard to 
hear you. Your connection keeps cutting out.
    Ms. Wasserman Schultz. Madam Chair, I think somebody is not 
on mute, because I can hear everybody fine and I don't have any 
noise in my background.
    Are you able to hear me, Mr. Sackler?
    Mr. David Sackler. I can now, yes.
    Ms. Wasserman Schultz. OK.
    Chairwoman Maloney. Will the staff mute everyone so that 
the Congresswoman can be heard with her questions and Mr. 
Sackler can be heard? Please mute all the backgrounds.
    Ms. Wasserman Schultz. Except mine.
    OK. Is it true that Purdue staff regularly provided updates 
to the board of directors, including you and members of your 
family, regarding so-called, quote, ``reports of concern'' 
about the abuse of Purdue's prescription opioids?
    Mr. David Sackler. I don't remember those reports of 
concern that you're detailing. I don't remember that at all. I 
remember reports about the Abuse and Diversion Program in 
general but not specifically what you're referring to.
    Ms. Wasserman Schultz. OK. Let me ask you further questions 
to jog your memory.
    If Purdue Pharma was more proactive in investigating 
whatever you want to call them, the information that you were 
being given about the widespread abuse of your own OxyContin 
prescription opioid, then shouldn't you have been notifying 
local medical boards or law enforcement and gotten more 
engaged, and wouldn't that have saved lives?
    Mr. David Sackler. I think that that's a terrific question, 
and thank you for asking it.
    The 2007 settlement with state attorneys general provided 
within it, as I understand it, the ability for those attorneys 
general or other law enforcement within the state--
    Ms. Wasserman Schultz. Reclaiming my time.
    Mr. David Sackler. I'm trying to answer your question. The 
answer is, yes, we did that; however, some states chose not to 
avail themselves of the data.
    Ms. Wasserman Schultz. Reclaiming my time, I'm not asking 
about what others should have done. I'm asking specifically 
about whether Purdue should have done more to notify law 
enforcement and medical regulators about the abuse and the 
recklessness that your--that providers that you worked with 
were overprescribing your product.
    Mr. David Sackler. As I understand the ADD Program, there 
was a process and system in place for doing that. I believe the 
program, over its life, reported over 200 doctors to relevant 
authorities. And the data on Region Zero, whether or not those 
doctors merited reporting, was available to states--
    Ms. Wasserman Schultz. You're shirking your own 
responsibility here. I want to point out----
    Mr. David Sackler. I don't see----
    Ms. Wasserman Schultz. Reclaiming my time, Madam Chair.
    I want to point out, Purdue Pharma actively thwarted the 
United States--and this is according to the DEA Assistant 
Administrator--that Purdue Pharma actively thwarted the United 
States' efforts to ensure compliance and prevent diversion.
    And, Mr. Sackler, internal documents obtained by the 
Massachusetts attorney general showed that a significant number 
of these reports of concern were brought to the board's 
attention but never investigated.
    And, according to an interview with a Purdue Pharma 
attorney in 2013, the company only made reports about 154 
prescribers, which is about eight percent of your Region Zero 
data base.
    There was a strong financial disincentive for Purdue to 
shut down pill mills or curb reckless providers. Taking these 
actions would have hurt the bottom line. It also would have 
saved countless lives. When the choice was between profits or 
people's lives, it's very clear that Purdue Pharma always chose 
to maximize profits. At best, this behavior is negligent; at 
worst, it represents a deadly and deliberate strategy that made 
your family rich while harming hundreds of thousands of people.
    Thank you for the indulgence, Madam Chair. I yield back the 
balance of my time.
    Chairwoman Maloney. I now recognize the gentlewoman from 
California, Representative Katie Porter.
    You are now recognized.
    Ms. Porter. Hello. Mr. Sackler, thank you for joining us 
today.
    In May 2007, Purdue Pharma and three of its top executives 
pleaded guilty to fraudulently marketing OxyContin.
    Do you know how much money your family withdrew from Purdue 
Pharma in various transactions between 2008 and 2007?
    Mr. David Sackler. I'm sorry, between 2008 and 2007?
    Ms. Porter. Oh, 1917, 1917.
    Mr. David Sackler. OK. I believe that number is a little 
bit more than $10 billion, of which half or so was paid in 
taxes.
    Ms. Porter. Correct, $10 billion.
    Those distributions started off slowly. From 1997 to 2007, 
in the 10 years prior, your family withdrew a total of $126 
million. Compare that to the next 10 years: $10.4 billion. All 
of a sudden, the Sackler family, right around 2007, started 
really pulling money out of Purdue Pharma.
    Mr. Sackler, do you recognize this message?
    Mr. David Sackler. I'm sorry, I'm not sure I can read that. 
Let me change the WebEx here.
    Ms. Porter. I'll read it to you.
    On May 17, 2007, you wrote an email that said, to your 
family, ``What do you think is going on in all these courtrooms 
right now? We're rich. For how long? Until which suit get 
through to the family?''
    Did you write that email?
    Mr. David Sackler. I believe so, yes.
    Ms. Porter. OK. Mr. Sackler, what was the sudden urgency 
that, all of a sudden, your company went from stewardship of 
Purdue Pharma taking out $120 million over 10 years to $10.4 
billion over 10 years? What happened?
    Mr. David Sackler. Well, I believe the--a few things 
happened. No. 1, we settled the legal issues that I was 
concerned about in that email----
    Ms. Porter. Oh, wait. Wait, wait. Reclaiming my time.
    Mr. David Sackler.--in the intervening----
    Ms. Porter. Mr. Sackler, are you suggesting that you kept 
money in the company while you were facing legal issues and 
then took it out once you were resolved of legal liability?
    Mr. David Sackler. No. I'm not suggesting that. I am 
telling you why we did what we did as best I can recall, 
which----
    Ms. Porter. Mr. Sackler, let me ask you, why should the 
company not transfer--why should the family not transfer back 
the $10.4 billion to be used to pay the creditors in this case, 
including victims of opioid abuse?
    Mr. David Sackler. Well, for a number of reasons. I think 
the most important----
    Ms. Porter. Do you not have the money?
    Mr. David Sackler. Ma'am, I'm trying my best to answer one 
at a time. Would you like me to answer the money----
    Ms. Porter. Yes, please.
    Mr. David Sackler.--Question?
    As I said in your opening questioning, of the $10 billion 
that you referenced, roughly half went to taxes. So, that money 
we do not have; it was paid in taxes.
    Does that answer your question?
    Ms. Porter. OK. So, you still have--but you still have over 
$4 billion that was not paid in taxes. Do you still have that 
money?
    Mr. David Sackler. We do. We still have that----
    Ms. Porter. And under----
    Mr. David Sackler.--Money.
    Ms. Porter. Reclaiming my time, under the proposed 
settlement that has been reached with the Department of 
Justice, which would be the cornerstone of this bankruptcy, how 
much is your family going to chip in to repay the creditors?
    Mr. David Sackler. I'm sorry, you're considering the DOJ 
settlement the cornerstone of the--the total settlement offer 
to creditors has been valued at more than $10 billion. So, 
that's the best I can do for you.
    Ms. Porter. OK. Let me help you out.
    And, Mr. Landau, perhaps you could ask Mr. Huebner, the 
bankruptcy attorney, about this.
    I have some questions about the Uniform Fraudulent Transfer 
Act, section 4(a)2.
    Before I came to Congress, I was a law professor and wrote 
this book, ``The Law of Debtors and Creditors.'' It's a 
bankruptcy law textbook. And UFTA section 4(a)2 makes it a 
fraudulent transfer to remove money from a corporation without 
receiving any value. And we all agree, Purdue didn't get 
anything out of giving the money away to the Sacklers. That 
didn't help the company; it helped the Sacklers.
    And the second factor is that when they took the money out 
of the company, what was left reasonably should've been--
reasonably could've been believed that the debtor would incur 
an inability to pay the debtor's debts as they come due.
    Now, David Sackler wrote this email. Mr. Landau, why are 
there not fraudulent transfers in this case?
    Dr. Landau. With respect, Representative, I'm not familiar 
with the bankruptcy code. I'm a physician. And I think there 
are many lawyers that have the expertise, including Mr. 
Huebner, who are actively working on the answers to your 
questions.
    Ms. Porter. But you do understand that you are the 
statutory debtor in possession, under 1107, and you have all 
the fiduciary duties of a trustee in bankruptcy at this time to 
recover every last dollar that can be recovered for the 
creditors in this case? The creditors in this case do not 
include the Sackler family.
    Dr. Landau. Yes, I do. And I know that there are 
appropriate individuals--there's a special committee of our 
board working with the creditors to resolve all of the 
transfers made from the company since 2008.
    Ms. Porter. I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    Mr. Comer?
    Before we adjourn, I want to recognize Ranking Member Comer 
for any closing remarks and again thank him for his leadership 
and help, along with Mark DeSaulnier, with this hearing.
    Mr. Comer, you're now recognized.
    Mr. Comer. Well, thank you, Madam Chair. And I just want to 
say that it's good for us to hold a hearing where both sides 
actually agree, and I hope that we could have more of those 
hearings in the next Congress.
    Let me conclude by addressing the topic of this hearing, 
and let me be direct with the Sackler family.
    There's no one in Congress more pro-business than I am. 
I'm, you know, 99 percent of the time on the side of the risk-
takers. I understand that a lot of drug companies get a bad 
rap, but they invest a lot in research and development, and 
they're the leading innovators, and we have the greatest 
healthcare system in the world because of the private-sector 
healthcare companies that we have in America.
    But there are bad actors.
    And to the Sackler family and Purdue Pharma, let me be as 
clear as I can be: You all are bad actors, and there's no 
excuse for what you did.
    In the beginning, you could make the argument that you 
didn't realize that this drug, which was possibly created to 
prevent pain, would become addictive and create the havoc that 
it's created over the past decade. But you did learn that. And 
you have tried every way in the world to continue to market 
that product, and you profited all along the way.
    Kentucky has one of the highest incarceration state 
percentages in the Nation per capita. I think it is the highest 
in the Nation. And the overwhelming majority of people who are 
incarcerated in Kentucky are there because of drug crimes. 
They've had to forfeit their assets. They have broken homes. 
And the cost to society is immeasurable.
    But you all have created the same harm to society, yet 
you're one of the wealthiest families in America.
    I hope that the courts hold you accountable. I hope that 
the states where you are domiciled and where you operate in the 
future have a watchful eye on you. And I hope that a story like 
this, a story like yours, never happens again.
    With that, Madam Chair, I yield back.
    Chairwoman Maloney. I thank the gentleman.
    The gentleman yields back.
    I just want to thank all of the panelists and thank the 
Sackler family for appearing without a subpoena. They came 
voluntarily.
    Thank you for your testimony.
    I want to thank all of my colleagues on both sides of the 
aisle for their insightful and thoughtful questions. And I can 
assure you, we will have future hearings to make sure, as the 
ranking member said, that this never happens again.
    I want to state that it has always been this committee's 
mission to focus on the people directly affected by the issues 
we examine. Since we announced this hearing, the committee 
received dozens of letters and submissions from individuals and 
families across the country whose lives have been affected by 
addiction.
    I ask for unanimous consent that these letters and 
statements be entered into the official record of the hearing.
    So, ordered.
    Chairwoman Maloney. Since 1999, nearly half a million lives 
have been cut short by the opioid epidemic. Millions more have 
been caught in the stranglehold of addiction. Families and 
communities, as we have heard from my colleagues today, have 
been absolutely devastated.
    In the Sackler family's version of the story, they are 
totally blameless, a family caught in the wrong place at the 
wrong time. They have pointed a finger at so-called bad-apple 
employees, the FDA, consulting firms, and prescribers. In the 
past, they even blamed the patients, the people suffering from 
opioid use disorder, which they fraudulently advertised and 
paid salesmen to push into pharmacies, into doctors, and into 
their lives.
    So, I'd like to say this clearly to the members of the 
Sackler family: The committee will not allow you to continue 
hiding from your part in this devastation. You have played a 
critical, active role in sparking and fueling the opioid 
epidemic. You approved and monitored dangerous marketing plans. 
They directed their sales representatives to focus on the 
highest-volume prescribers and the strongest version of 
addictive OxyContin. You targeted vulnerable populations with 
misleading messages.
    And when it began to look like your wealth could be at risk 
from lawsuits, you moved it out of reach, preventing the money 
from going to the victims of the crisis they created.
    We did not get all of the answers we needed from the 
Sackler family, but the witnesses have agreed to make 
additional information available to the committee and to the 
public: No. 1, you have agreed to provide a full accounting of 
the shell companies owned by the Sackler family. No. 2, you 
have agreed to make publicly available all documents in the 
Sackler family's possession.
    Let me close with this. Earlier, Mr. Cooper called you one 
of the most evil families in America. A lot of people agree 
with that. You have the ability now to mitigate at least some 
of the damage you caused.
    Please stop hiding and offshoring your assets. Stop nickel-
and-diming the negotiators. Make a massive financial 
contribution that leaves no doubt about your commitment. And, 
finally, acknowledge your wrongdoing. The families and 
communities whose lives have been ruined deserve at least that 
much.
    They have taken money out of the company so it would be 
forever beyond the legal reach of the people they were harming. 
They are the Bernie Madoffs of medicine.
    Adjourned.
    Oh, in closing, without objection, all members have five 
legislative days within which to submit additional materials 
and written questions for the witnesses to answer, which will 
be forwarded to the witnesses for their response.
    Chairwoman Maloney. I ask our witnesses to please respond 
as promptly as you can.
    This hearing is adjourned.
    [Whereupon, at 12:46 p.m., the committee was adjourned.]

                                Appendix

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
